<html>
<title> - LEGISLATIVE HEARING TO EXAMINE PIPELINE SAFETY REAUTHORIZATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


     LEGISLATIVE HEARING TO EXAMINE PIPELINE SAFETY REAUTHORIZATION

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2016

                               __________

                           Serial No. 114-121
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               __________
        
        
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-150                         WASHINGTON : 2017                       
                     
_________________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  
                    
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     2
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     8

                               Witnesses

Marie Therese Dominguez, Administrator, Pipeline and Hazardous 
  Materials Safety Administration................................     9
    Prepared statement...........................................    11
    Answers to submitted questions...............................   162
Norman J. Saari, Commissioner, Michigan Public Service Commission 
  (on behalf of the National Association of Regulatory Utility 
  Commissioners).................................................    51
    Prepared statement...........................................    53
Ron Bradley, Vice President of Gas Operations, Peco Energy (on 
  behalf of the American Gas Association)........................    72
    Prepared statement...........................................    74
Andrew Black, President and CEO, Association of Oil Pipe Lines...   100
    Prepared statement...........................................   102
Donald Santa, President and CEO, Interstate Natural Gas 
  Association of America.........................................   111
    Prepared statement...........................................   113
Carl Weimer, Executive Director, Pipeline Safety Trust...........   121
    Prepared statement...........................................   123
    Answers to submitted questions...............................   169

                           Submitted Material

Letter of February 29, 2016, from Ms. Capps to the Pipeline and 
  Hazardous Materials Safety Administration......................   151
Statement of the American Public Gas Association.................   154

 
     LEGISLATIVE HEARING TO EXAMINE PIPELINE SAFETY REAUTHORIZATION

                              ----------                              


                         TUESDAY, MARCH 1, 2016

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. Ed Whitfield 
(chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Olson, Shimkus, 
Latta, Harper, McKinley, Griffith, Johnson, Long, Mullin, 
Hudson, Upton (ex officio), Rush, McNerney, Tonko, Capps, 
Doyle, Yarmuth, Loebsack, and Pallone (ex officio).
    Staff present: Gary Andres, Staff Director; Will Batson, 
Legislative Clerk, E&P, E&E; Leighton Brown, Deputy Press 
Secretary; Allison Busbee, Policy Coordinator, Energy & Power; 
Tom Hassenboehler, Chief Counsel, Energy & Power; A.T. 
Johnston, Senior Policy Advisor; Brandon Mooney, Prof. Staff 
Member, E&P; Annelise Rickert, Legislative Associate; Chris 
Sarley, Policy Coordinator, Environment & Economy; Dan 
Schneider, Press Secretary; Christine Brennan, Minority Press 
Secretary; Jeff Carroll, Minority Staff Director; Rick Kessler, 
Minority Senior Advisor and Staff Director, Energy and 
Environment; John Marshall, Minority Policy Coordinator; 
Alexander Ratner, Minority Policy Analyst; Andrew Souvall, 
Minority Director of Communications, Outreach and Member 
Services; and Tuley Wright, Minority Energy and Environment 
Policy Advisor.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Good morning and I would like to call our 
hearing to order this morning. And I would like to recognize 
myself for a 5 minute opening statement.
    First of all, I want to thank all of our witnesses today. 
We have two panels of witnesses and I certainly want to thank 
Administrator Dominguez for her constructive comments and her 
commitment to work with our committee.
    This morning we are going to be examining a discussion 
draft of a bill that reauthorizes the Pipeline and Hazardous 
Materials Safety Administration pipeline safety program. This 
discussion draft contains targeted mandates for PHMSA to 
increase transparency and accountability, complete overview 
regulations, and improve safety.
    I might say that working with the Transportation and 
Infrastructure Committee, the House successfully ushered 
through the Pipeline Safety, Regulatory Certainty, and Job 
Creation Act of 2011 on a bipartisan basis. Now it is time to 
update that law. With today's changing energy landscape and the 
need to modernize infrastructure greater than ever, we are 
looking forward to a productive discussion on our draft bill 
with a goal of reporting to the full House the legislation by 
this spring for its consideration. Our Senate colleagues, I 
might say, on the Commerce, Science and Transportation 
Committee reported S. 2276 the SAFE PIPES Act on December 9, 
2015, and we believe that a strong, bipartisan, bicameral 
effort will yield a public law we can all be proud of.
    I might say that I want to point out the unfinished 
business from the last reauthorization. The 2011 pipeline 
safety law included 42 mandates on PHMSA and 16 of them remain 
incomplete, well beyond the statutorily-imposed deadlines. So 
our discussion draft will require the Administrator to 
prioritize overdue regulations ahead of new rulemakings and 
keep us updated on that progress.
    So I really look forward to our discussion this morning. 
And at this point, I would like to yield the balance of my time 
to the gentleman from Texas, Mr. Olson.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    I am pleased that we are at the point of having a 
legislative hearing on pipeline safety reauthorization. I want 
to thank all of our witnesses for their time and thoughtful 
comments. In particular, I want to thank Administrator 
Dominguez for her constructive comments and her commitment to 
work with our committee.
    The Energy and Commerce Committee has been at the forefront 
of improving pipeline safety. Members today will examine a 
discussion draft of a bill that reauthorizes the Pipeline and 
Hazardous Materials Safety Administration's (PHMSA) pipeline 
safety program. The discussion draft contains targeted mandates 
for PHMSA to increase transparency and accountability, complete 
overdue regulations, and improve safety.
    This committee has a proud, longstanding tradition of 
working together when it comes to pipeline safety. Together 
with the Transportation and Infrastructure Committee, the House 
successfully ushered through the Pipeline Safety, Regulatory 
Certainty and Job Creation Act of 2011 on a bipartisan basis. 
Now it's time to update that law. With today's changing energy 
landscape and the need to modernize infrastructure greater than 
ever, we are looking forward to a productive discussion on our 
draft bill that allows this committee to move expeditiously, so 
we can report a bill to the full House this spring for its 
consideration. Our Senate colleagues on the Commerce, Science 
and Transportation Committee reported S 2276, the Safe PIPES 
Act on December 9, 2015. We believe that a strong bipartisan-
bicameral effort will yield a public law we can all be proud 
of.
    I do need to point out the unfinished business from the 
last reauthorization. The 2011 Pipeline Safety law included 42 
mandates of PHMSA and 16 of them remain incomplete well beyond 
the statutorily imposed deadlines. Our discussion draft 
requires the Administrator to prioritize overdue regulations 
ahead of new rulemakings and keep us updated on their progress. 
To make sure we are not being too rigid, exceptions are allowed 
when there is a significant need for a new regulation.
    Another provision of the draft bill that has received 
strong support is section 6, which would require the Secretary 
of Transportation, no later than 30 days after the completion 
of a pipeline inspection, to conduct a post-inspection briefing 
with the operator outlining any concerns. This provision will 
ensure that un-safe conditions are corrected as quickly as 
possible.
    The draft legislation before us today also contains 
requirements for new safety regulations relating to underground 
gas storage facilities and underwater hazardous liquid pipeline 
facilities and response plans.
    This is just a preview of some of the provisions reflected 
in the draft before us today. I look forward to a robust 
discussion about the lessons learned from the past and ways to 
prepare for the future.

    Mr. Olson. Thank you, Mr. Chairman. I will be very brief. 
Pipeline safety is bipartisan. I am a pro-energy, pro-growth 
congressman from the pro-growth, pro-energy city of Houston, 
Texas. But growth only happens if the people trust us, if we 
get safety right.
    Industry does its best but government must do its part, 
too. Sensible rules need to be written and effectively 
enforced. Mistakes cost lives. Inaction costs lives. And that 
is why I would like to thank my friend and chairman for holding 
this hearing on a draft bill to reauthorize the Pipeline Safety 
Act. It is an important step forward. This bill includes some 
critical language on having safety inspectors that my good 
friend and fellow Texan, Gene Green, and I wrote with another 
Texan, Brian Babin and Janice Hahn, a Californian, who went to 
college in Amarillo and Abilene, Texas.
    This process for having inspectors at the federal level is 
slow and difficult. Let us cut the red tape, put inspectors on 
the ground. Let us get safety right. I yield back.
    Mr. Whitfield. The gentleman yields back. This time I 
recognize the gentleman from Illinois, Mr. Rush, for his 5 
minute opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for holding 
this important and timely hearing today on pipeline safety 
reauthorization. I want to also welcome Administrator Dominguez 
to the subcommittee and thank her for being here.
    Unfortunately, Mr. Chairman, it seems that every time we 
have a hearing on pipeline safety, we do so with a backdrop of 
either an ongoing spill or in the immediate aftermath of one. 
Of course, the most recent high-profile incident involved in 
2015 the Aliso Canyon natural gas storage field in Los Angeles 
where it is estimated that over 90,000 metric tons of methane 
escaped into the atmosphere and thousands of families have been 
impacted.
    Other high-profile leaks include the May 2015 crude oil 
spill from a pipeline operated by Plains All American Pipeline, 
along the Santa Barbara County coastline. Before that, there 
was a July 2010 Enbridge spill near Marshall, Michigan. And 
later, that same year in September, there was also the Pacific 
Gas and Electric Company natural gas explosion in San Bruno in 
the suburbs of San Francisco just to name a few.
    Mr. Chairman, we all know that pipelines are necessary and 
we must continue to build them to meet the energy needs of our 
nation. However, Mr. Chairman, we also know that many of the 
current pipelines are aging and they must be replaced, which 
may lead to additional problems if we keep kicking the 
proverbial can down the road.
    Mr. Chairman, we must ensure the American public that this 
subcommittee or jurisdiction is doing everything within our 
authority to ensure that more current and future pipelines are 
as safe as possible.
    In the past, the issue of pipeline safety has been one that 
we are working on in a bipartisan manner. And it is my hope and 
my expectation that we will continue to do so in the same 
tradition as we address this important issue in this current 
Congress.
    So again, Mr. Chairman, I applaud you and with that I yield 
the balance of my time to my wonderful colleague from great 
State of California, Ms. Capps.
    Ms. Capps. Thank you. I thank my ranking member for 
yielding and thank you Chairman Whitfield and Ranking Member 
Rush for holding this hearing, Chairman Upton and Ranking 
Member Pallone, for ensuring we consider pipeline safety in 
this committee.
    Welcome, Administrator Dominguez. Thank you for visiting my 
district recently.
    On May 19th, the Plains Pipeline 901 ruptured in my 
district, dumping over 120,000 gallons of crude oil along 
California's Gaviota Coast and into the ocean. This incident 
not only affected public health and the environment, but also 
our local economy that is strongly reliant on tourism, as well 
as the fishing and shrimping industries. While the May spill 
happened in my community, nearly all of us have miles, hundreds 
of miles of pipeline running through our districts, allowing 
for the transport of natural gas and hazardous liquids, like 
crude oil, across our country.
    So today's topic, pipeline safety, is incredibly important 
to each of us. That is why it is critical that our committee 
come together as it historically has to produce a strong 
bipartisan pipeline safety bill that builds on the lessons 
learned in the Plains spill, as well as incidents that have 
occurred across the country. I am hopeful we can again make 
this a strong bipartisan effort.
    Unfortunately, the draft language as currently written is 
inadequate in providing the much-needed updates to pipeline 
safety legislation to ensure the protection of our public 
health and the environment.
    Whether we are discussing the pipeline rupture in my 
district last May or the Aliso Canyon natural gas storage leak 
just to the south of my district, these incidents occur all too 
frequently. And each time a failure occurs, as it recently did 
in Chairman Upton's and Ranking Member Pallone's and my 
district, the need to act becomes even more clear. It is 
critical that we take the steps and the lessons from these 
incidents and use them to strengthen our pipeline safety 
infrastructure. For example, the spill in my district 
highlighted the inadequacies of the in-line inspection process 
currently used by PHMSA. Even with the shortened inspection 
interval, the Plains pipeline failed spilling crude across the 
landscape into the ocean.
    So we have many results of this survey and PHMSA has the 
authority and the resources to require an appropriate time line 
for inspections for every single pipeline in our country. We 
must ensure that the results from these surveys are made 
available to PHMSA and the public in a timely manner. We must 
strengthen the high consequence areas designation, something 
this draft falls short on. And there is room to strengthen 
these provisions in the draft before us. We must.
    We have this opportunity to improve the existing 
legislative requirements for pipeline safety. I ask that the 
chairman work closely with all of us to improve this bill. 
Thank you. And I yield back.
    Mr. Whitfield. The gentlelady's time has expired. At this 
time, I recognize the chairman of the full committee, Mr. 
Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. And let me just respond 
to my friend, Ms. Capps. I look forward to working with you and 
your staff and we are continuing to do that.
    Pipeline safety is something that I take very seriously. 
And it has long been a priority for me as well as this 
committee. Spills, as we know, can be very disastrous and it is 
imperative that our laws stay up to date and work to minimize 
potential damage as well as try to prevent them from happening 
in the first place.
    In the wake of the serious oil spill that affected the 
Kalamazoo River, just outside of my district, I worked on a 
strong bipartisan basis with my friend, John Dingell, in 
conjunction with our friends on the Transportation and 
Infrastructure Committee to enact the Pipeline Safety, 
Regulatory Certainty, and Job Creation Act of 2011. While the 
legislation's name might be hard to remember, its positive 
effects are not. This bipartisan bill, law, helps prevent 
pipeline failures, strengthens safety standards, and holds 
those responsible for pipeline accidents accountable.
    We cannot achieve the intended objectives of the Pipeline 
Safety Act until it has been fully implemented. The hearing 
last July revealed that PHMSA has failed to implement many of 
the mandates required by the law under the Pipeline Safety Act 
of 2011. Today, over 4 years after enactment, at least 16 
important safety regulations remain overdue. Rulemakings 
related to leak detection and emergency shutoff valves, public 
education and awareness, accident and incident notification are 
among some of the mandates PHMSA has failed to implement which 
would greatly improve pipeline safety.
    The discussion draft before us today, Pipeline Safety Act 
of 2016, is a starting point in reauthorizing the 2011 law. The 
draft seeks to increase regulatory transparency, speed the 
completion of overdue safety regs, tighten standards for 
underground natural gas storage facilities and underwater oil 
pipelines and reauthorizes PHMSA's pipeline safety programs. 
Taken together, I believe that the provisions included within 
the draft will go a long way towards improving pipeline safety, 
increasing the public confidence in our nation's energy 
infrastructure.
    And as we learned when examining the Kalamazoo spill, we 
needed to do a lot better job to improve pipeline safety. I 
think that we have made some progress with this draft and the 
draft bill is certainly an important step forward.
    One of the things that I initiated is a new provision 
requiring annual inspections that are fully transparent for 
some deep water crossings of existing pipelines. That is, in 
fact, Section 12 of the discussion draft would require annual 
inspections for deep underwater pipelines. A change in the law 
would mean that lines that cross under the Straits of Mackinac 
between the Upper and Lower Peninsula of Michigan would be 
required to be inspected every year, rather than every 5 years 
and those results made public.
    Though I may not be able to stay for the entire hearing 
this morning, I would appreciate your comments, maybe even in 
your opening statement, as to the support, hopeful support, of 
that provision as part of this bill.
    Feedback provided by our witnesses today will place us on a 
path towards enacting a bipartisan and meaningful 
reauthorization bill. I look forward to continuing with working 
with our colleagues on the Transportation and Infrastructure 
Committee, as well as our colleagues in the Senate, to get this 
bill done. And I yield back the balance of my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Pipeline safety is something I take very personally, and it 
has long been a priority for me, and this committee. Spills can 
prove disastrous, and it is imperative that our laws stay up to 
date and work to minimize potential damage, as well as try to 
prevent them from happening in the first place.
    In the wake of the serious oil spill that affected the 
Kalamazoo River in my district, I worked on a bipartisan basis 
with my friend John Dingell--and in conjunction with our 
friends on the Transportation and Infrastructure Committee--to 
enact the Pipeline Safety, Regulatory Certainty, and Job 
Creation Act of 2011. While the legislation's name might be 
hard to remember, its positive effects are not. This bipartisan 
bill helps prevent pipeline failures, strengthens safety 
standards, and holds those responsible for pipeline accidents 
accountable.
    We cannot achieve the intended objectives of the Pipeline 
Safety Act until it has been fully implemented. A hearing last 
July revealed that the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) has failed to implement many of the 
mandates required by law under the Pipeline Safety Act of 2011. 
Today, over 4 years after enactment, at least 16 important 
safety regulations remain overdue. Rulemakings related to leak 
detection and emergency shutoff valves, public education and 
awareness, and accident and incident notification are among 
some of the mandates PHMSA has failed to implement and which 
would greatly improve pipeline safety.
    The discussion draft before us today, the Pipeline Safety 
Act of 2016, is a starting point in reauthorizing the 2011 law. 
The draft seeks to increase regulatory transparency, speed the 
completion of overdue safety regulations, tighten standards for 
underground natural gas storage facilities and underwater oil 
pipelines, and reauthorize PHMSA's pipeline safety programs. 
Taken together, I believe the provisions included within the 
draft will go a long way toward improving pipeline safety 
increasing the public confidence in our nation's energy 
infrastructure.
    As we learned when examining the Kalamazoo spill, we needed 
to do a lot better job to improve pipeline safety. We have made 
progress, much work remains, and this draft bill is an 
important step forward.
    I'm hopeful the testimony and feedback provided by our 
witnesses today will place us on a path toward enacting a 
bipartisan and meaningful reauthorization bill. I also look 
forward to continue to working with our colleagues on the 
Transportation and Infrastructure Committee as we move ahead.

    Mr. Whitfield. The gentleman yields back. At this time, I 
will recognize the gentleman from New Jersey, Mr. Pallone, for 
5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Whitfield and Ranking 
Member Rush for holding this hearing on pipeline safety 
reauthorization and the discussion draft released by the 
committee last Friday. While I believe the draft could and 
should be much stronger, it is a good start and includes some 
important provisions on underground gas storage, pipeline 
safety, Technical Assistance Grants, and mandamus.
    The vast network of transmission pipelines in this country 
are essentially ``out of sight, out of mind'' for most 
Americans. But when something goes wrong, these facilities can 
make themselves known in devastating and sometimes deadly ways. 
Over the last year, we have witnessed both 100,000 gallon crude 
oil spill into pristine coastline in Representative Capps' 
district in California and a massive gas storage facility leak 
in Los Angeles. The leak forced thousands of people from their 
homes for long periods of time and released 96,000 metric tons 
of methane into the atmosphere, the climate-damaging equivalent 
of burning 900 million gallons of gasoline.
    My own district experienced the devastation of a pipeline 
failure in 1994 when a pipeline exploded in Edison, New Jersey, 
destroying about 300 homes. Yet, two decades and four 
reauthorizations later, the Department of Transportation's 
Pipeline and Hazardous Materials Safety Administration, or 
PHMSA, has made little progress in my opinion in securing the 
safety of our nation's pipeline infrastructure.
    I hope that will soon change and I welcome the new 
Administrator Dominguez who I believe understands these 
concerns. It appears you and Secretary Fox are determined to 
bring positive change to this agency and I sincerely hope you 
succeed in your efforts to ensure the safety of our pipeline 
system. We look forward to helping you in any way that we can.
    The discussion draft before us is a modest, but balanced 
starting point for that effort. The draft contains language to 
address regulation of underground gas storage facilities like 
Aliso Canyon in California that leaked methane for 5 months 
until just a week ago. However, I don't believe that it goes 
far enough and I hope the committee will consider adopting the 
stronger language of H.R. 4578, authored by Representative Brad 
Sherman, who represents the residents around this facility and 
lives in the neighborhood that experienced the most direct 
adverse effects of the leak.
    I am encouraged that this draft includes language authored 
by Mr. Green that will allow us to finally begin a conversation 
about the need for PHMSA to have a direct power of authority. 
It is also critical that we provide the necessary tools--
including funding--so the agency can attract the best and 
brightest inspectors and safety experts in order to carry out 
its responsibilities. We should also give the agency carefully 
crafted emergency order authority to ensure that PHMSA can 
address situations and facilities that pose a threat to life, 
property, and the environment. And we should remove barriers to 
PHMSA's success, such as the multiple layers of overly 
prescriptive risk assessment and cost benefit analysis that 
have hampered the agency's efforts to improve safety.
    Finally, I am pleased that the draft contains a provision 
restoring the ability of the public to compel PHMSA to perform 
its nondiscretionary obligations. This provision is necessary 
to address an incorrect reading of the 2002 reauthorization by 
the Ninth Circuit. While I have great respect for the courts, 
it is clear to me that the Ninth Circuit's reading of the 
Pipeline Safety Act with regard to mandamus was just plain 
wrong. The law always contemplated mandamus-type suits to 
ensure PHMSA does its job. The mandamus language added to the 
statute in 2002, as part of the whistleblower protection 
provision, was always intended to be in addition to what was 
already in the statute not in lieu of the existing language as 
the court incorrectly stated. At our hearing last year, we all 
voiced frustration at PHMSA's inaction on a number of fronts. 
While I know Administrator Dominguez is trying to change this 
situation, it is still important for the public to have the 
ability to access the courts to ensure PHMSA is keeping our 
pipeline system safe.
    And while I believe the discussion draft could be stronger, 
it is important to know that the last three pipeline safety and 
reauthorizations were truly bipartisan efforts that moved our 
nation forward on safety. Our committee has always produced the 
best and strongest pipeline safety legislation and I look 
forward to continuing to work with Chairman Upton, Chairman 
Whitfield, Ranking Member Rush, Representative Capps, and 
colleagues on both sides of the aisle to produce truly 
meaningful legislation that protects lives, property, and the 
environment while providing more certainty and reducing 
unnecessary burdens on industry.
    So thank you again, Mr. Chairman. I yield back the balance 
of my time.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you Chairman Whitfield and Ranking Member Rush for 
holding this hearing on pipeline safety reauthorization and the 
discussion draft released by the committee last Friday. While I 
believe the draft could and should be much stronger, it is a 
good start and includes some important provisions on 
underground gas storage, pipeline safety technical assistance 
grants and mandamus.
    The vast network of transmission pipelines in this country 
are essentially ``out of sight, out of mind'' for most 
Americans. But when something goes wrong, these facilities can 
make themselves known in devastating and sometimes deadly ways. 
Over the last year we've witnessed both a 100,000 gallon crude 
oil spill onto pristine coastline in Rep. Capps' district in 
California and a massive gas storage facility leak in Los 
Angeles. The leak forced thousands of people from their homes 
for long periods of time and released 96,000 metric tons of 
methane into the atmosphere--the climate damaging equivalent of 
burning 900 million gallons of gasoline.
    My own district experienced the devastation of a pipeline 
failure in 1994 when a pipeline exploded in Edison, New Jersey 
destroying about 300 homes. Yet, two decades and four 
reauthorizations later, the Department of Transportation's 
Pipeline and Hazardous Materials Safety Administration or PHMSA 
has made little progress in securing the safety of our nation's 
pipeline infrastructure.
    I hope that will soon change, and I welcome new 
Administrator Dominguez, who I believe understands these 
concerns. It appears you and Secretary Foxx are determined to 
bring positive change to this agency. I sincerely hope you 
succeed in your efforts to ensure the safety of our pipeline 
system and we look forward to helping you any way we can.
    The discussion draft before us is a modest, but balanced 
starting point for that effort. The draft contains language to 
address regulation of underground gas storage facilities like 
Aliso Canyon in California that leaked methane for 5 months 
until just a week ago. However, I don't believe that it goes 
far enough, and I hope the Committee will consider adopting the 
stronger language of H.R. 4578, authored by Rep. Brad Sherman 
who represents the residents around this facility and lives in 
the neighborhood that experienced the most direct adverse 
effects of the leak.
    I'm encouraged that this draft includes language authored 
by Mr. Green that will allow us to finally begin a conversation 
about the need for PHMSA to have direct hire authority. It's 
also critical that we provide the necessary tools--including 
funding--so the agency can attract the best and brightest 
inspectors and safety experts in order to carry out its 
responsibilities. We should also give the Agency carefully 
crafted emergency order authority to ensure that PHMSA can 
address situations and facilities that pose a threat to life, 
property, and the environment. And, we should remove barriers 
to PHMSA's success, such as the multiple layers of overly 
prescriptive risk assessment and cost-benefit analysis that 
have hampered the agency's efforts to improve safety.
    Finally, I'm pleased that the draft contains a provision 
restoring the ability of the public to compel PHMSA to perform 
its non-discretionary obligations. This provision is necessary 
to address an incorrect reading of the 2002 reauthorization by 
the Ninth Circuit. While I have a great respect for the courts, 
it's clear to me that the Ninth Circuit's reading of the 
Pipeline Safety Act with regard to mandamus was just plain 
wrong: the law always contemplated mandamus-type suits to 
ensure PHMSA does its job. The mandamus language added to the 
statute in 2002 as part of the whistleblower protection 
provision was always intended to be an addition to what was 
already in the statute, not in lieu of the existing language as 
the Court incorrectly stated. At our hearing last year, we all 
voiced frustration at PHMSA's inaction on a number of fronts. 
While I know Administrator Dominguez is trying to change this 
situation, it is still important for the public to have the 
ability to access the courts to ensure PHMSA is keeping our 
pipeline system safe.
    While I believe the discussion draft could be stronger, 
it's important to note that the last three pipeline safety 
reauthorizations were truly bipartisan efforts that moved our 
nation forward on safety. Our committee has always produced the 
best and strongest pipeline safety legislation. I look forward 
to continuing to work with Chairman Upton and Chairman 
Whitfield, Ranking Member Rush, Rep. Capps and colleagues on 
both sides of the aisle to produce truly meaningful legislation 
that protects lives, property and the environment while 
providing more certainty and reducing unnecessary burdens on 
industry.
    Thank you. I yield back the balance of my time.

    Mr. Whitfield. Mr. Pallone yields back the balance of his 
time, so that concludes the opening statements.
    And I would like to introduce our only witness on Panel 1 
this morning and that the Honorable Marie Therese Dominguez, 
who is the Administrator for the Pipeline and Hazardous 
Material Safety Administration at the U.S. Department of 
Transportation. She has had an illustrious career. She was the 
Assistant Secretary for Civil Works over at the Army Corps of 
Engineers, as well as other positions. We are delighted that 
you are here. We look forward to your testimony and the 
opportunity to ask questions. So you are recognized for 5 
minutes, Madam Administrator.

      STATEMENT OF THE HONORABLE MARIE THERESE DOMINGUEZ, 
    ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS SAFETY 
                         ADMINISTRATION

    Ms. Dominguez. Thank you, sir. Good morning. Chairmen 
Upton, Whitfield, Ranking Members Pallone and Rush, and members 
of the subcommittee, thank you for inviting me to testify today 
on the reauthorization of the U.S. Department of 
Transportation's Pipeline and Hazardous Materials Safety 
Administration's pipeline safety program.
    PHMSA operates in a dynamic and challenging atmosphere. The 
demand for our work has increased as has the complexity and 
scope of our mission and responsibilities. The development of 
new energy resources, advancements in technology, and the use 
of hazardous materials in everyday products impact 
transportation safety.
    Recent incidents and increased public awareness and 
sensitivity to safety hazards and environmental consequences 
have resulted in increased scrutiny of the agency and it 
demands that we become proactive, innovative, and forward-
looking in all that we do.
    Addressing the mandates in the Pipeline Safety Act of 2011 
is a priority of PHMSA. The Act included 42 new congressional 
mandates to advance PHMSA's safety mission and we have 
completed 26 of those mandates to date.
    Since I was appointed last summer, we have made progress in 
addressing four outstanding rulemakings, including publishing a 
final rule on pipeline damage prevention programs and proposed 
rulemakings on expanding the use of excess flow valves in 
distribution pipelines, as well as operator qualification, cost 
recovery, and accident notification, and a significant rule 
addressing safety of hazardous liquid pipelines.
    We are currently and actually, I just got news this 
morning, that OMB has completed its review and we are planning 
on publishing within the next couple of weeks gas transmission, 
the gas transmission rule which has been outstanding.
    Congress has made investments in PHMSA, providing 100 new 
positions for the pipeline safety program in the last year. And 
we have filled over 91 percent of these positions.
    Moving forward, we must continue to utilize the investments 
Congress has provided wisely. Over the past 6 months, I have 
worked to better understand PHMSA's strengths, capability gaps, 
and areas for improvement. We have undertaken an organizational 
assessment that evaluated the agency's structure and processes. 
This assessment provided PHMSA's leadership team deeper insight 
into an organization where safety is a personal value for all 
of our talented and dedicated employees. And it also 
highlighted critical investment areas.
    As a result, PHMSA has updated its strategic framework, 
recognizing the need to improve our capacity to leverage data 
and economic analysis, to promote continuous improvement in 
safety performance through the establishment of safety-
management systems, both within the agency and across the 
industry, and by creating a division that will support 
consistency in mission execution. This new framework called 
PHMSA 2021 was directly informed by PHMSA employees and will 
allow us to be more predictive, consistent, and responsive as 
we fulfill our mission in protecting people and the environment 
by advancing the safe transportation of energy and other 
hazardous materials that are essential to the daily lives of 
all Americans.
    PHMSA 2021 will allow us to better prioritize our work and 
be proactive in informing, planning, and execution. It will 
also allow us to be more predictive in our efforts to mitigate 
future safety issues and to implement data-driven, risk-based 
inspections, leading our regulated communities in a direction 
that powers our economy, cultivates innovation, and prioritizes 
safety.
    Thank you for continuing to invest in PHMSA. I look forward 
to continuing to work with the Congress to reauthorize PHMSA's 
pipeline safety program and I would be pleased to answer any 
questions.
    [The prepared statement of Ms. Dominguez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Well, thank you, Administrator Dominguez, 
and I recognize myself for 5 minutes of questions.
    In your opening statement you made reference to the gas 
transmission regulation. Is that proposed at this point? You 
all are not getting ready to finalize that.
    Ms. Dominguez. It is a Notice of Proposed Rulemaking.
    Mr. Whitfield. OK. And that was one of the----
    Ms. Dominguez. That is one of the outstanding mandates.
    Mr. Whitfield. And how many outstanding mandates are there 
right now?
    Ms. Dominguez. Right now there are 16. If we address the 
gas transmission rule that addresses several different sections 
of the Pipeline Act of 2011. And as I said, that will be 
addressed in the coming weeks.
    Mr. Whitfield. Right. Well, we appreciate that. You came to 
PHMSA, you had not been involved in PHMSA before. You were 
appointed to this position, I guess. You took over, was it in 
August?
    Ms. Dominguez. I was confirmed in August of last year.
    Mr. Whitfield. Yes. If you were speaking to the Rotary Club 
in rural Kentucky, for example, and you were talking about 
safety of our national pipelines, how would you characterize it 
to a layman today, our system here in the U.S.?
    Ms. Dominguez. Well, having worked at PHMSA, I can tell you 
that first and foremost the employees of PHMSA are incredibly 
dedicated to our safety mission. And the safety mission 
encompasses hazardous materials and pipelines. And I can tell 
you that that level of dedication extends across the board to 
every aspect of our rulemaking, our inspection process, and our 
enforcement regime that we undertake as an agency. Pipelines is 
one aspect of that. It is a mode of transportation for 
hazardous materials that we regulate. We take our mission very 
seriously and look to make sure that we are continuously 
working to improve that framework for safety.
    Mr. Whitfield. Now I think the pipeline industry safety 
record is generally improving, but concerns have been expressed 
about a series of accidents. You think overall we are doing 
better, right? Or are you concerned about overall--some of 
these pipelines are pretty old. Some of the improvements that 
need to be made have been delayed because of the uncertainty 
about regulations and so forth. Do you think that the fact that 
these mandates have not been completed yet, is that 
contributing in a significant way to increased safety issues in 
your view or not?
    Ms. Dominguez. I think we have opportunity, given the 2011 
requirements to continue to enhance safety. I think in 
particular the two rules that we have been working on most 
aggressively in the last 6 months certainly that I have 
personally engaged on are first the hazardous liquid rule, and 
second, this gas transmission rule. Both of those were 
requirements from the 2011 act and are very significant to 
actually improving the safety of both gas and liquid 
transmission. And they expand some of the requirements that 
will certainly enhance safety and we believe lead to greater 
protections across the board for people and the environment.
    Mr. Whitfield. Section 15 of our discussion draft is in 
parentheses, and it would allow a private individual to file a 
lawsuit against PHMSA for failure to perform a non-
discretionary duty. Have you or has PHMSA taken a position on 
that particular part of this draft?
    Ms. Dominguez. We have had a chance to review the language 
that was published by the committee. I would be happy to work 
with the committee moving forward on how to best frame that 
provision, that particular provision. But obviously, there are 
provisions for citizens to have the right to sue, whether it is 
the Federal Government or private entities.
    Mr. Whitfield. They can sue you already as a matter of 
fact.
    Ms. Dominguez. Yes.
    Mr. Whitfield. OK. I will yield back the balance of my 
time. Thank you very much. I recognize Mr. Rush for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Administrator Dominguez, last week we had a very 
informative and inspirational meeting in my office. We briefly 
discussed the process for hiring talent for PHMSA, the 
challenges that PHMSA faced when competing against the private 
sector, and I think that some of your insights need to be 
shared with the members of this subcommittee regarding some of 
the challenges and some of the possible remedies to help the 
agency attract top candidates to help you accomplish and 
achieve your mission.
    And in your comments, would you include your thoughts about 
Mr. Green's proposal and whether or not this speaks towards the 
issue? Give us some insight into your challenges?
    Ms. Dominguez. Thank you, sir. I believe you are referring 
to the ability for PHMSA to do direct hire. And the committee 
is certainly taking that up in their draft legislation. And I 
very much appreciate it.
    The Congress has been incredibly generous in providing 
funds to PHMSA. Over the last year alone we were provided 122 
new positions to the agency. One hundred nine of those 
positions went directly to the pipeline safety program. And we 
have been working diligently to try and fill those as quickly 
as possible. We are at about a 91 percent fill rate right now. 
But I will tell you that it is difficult to compete against the 
private sector in particular. Everyone is going after great 
talent in this country and the provision that has been provided 
on direct hire authority would greatly assist us regardless of 
what the market is in making sure that we can bring on folks in 
a timely way. And the federal process is such that direct hire 
authority would definitely assist us in making sure that we are 
able to access the folks with the talent and skills to work in 
these critical jobs.
    Mr. Rush. And so let me move on to another matter. What 
role should Congress play in helping to address the issue of 
replacing the nation's aging pipeline infrastructure? As you 
know, at one point during the negotiations of the larger energy 
bill last year, this subcommittee discussed the idea of 
creating a grant program to help mitigate the cost of replacing 
these aging pipelines for low-income families. Unfortunately, 
that program was scrapped.
    What do you believe is the proper role that Congress should 
play in this debate? Should the role of Congress be one of 
providing for national support, offering guidance, lessening 
minimal safety standards or something else entirely?
    Ms. Dominguez. I believe that the role of the Congress is 
to make sure that we provide the most stringent opportunity for 
safety in the pipeline area. And so the TAG grants that you are 
referring to, the Technical Assistance Grants that the states 
have offered are truly valuable investments to local 
communities. And they have helped educate communities on safety 
pipeline issues. They have helped emergency responders across 
the board. And PHMSA, I believe, has employed some very good 
internal controls on how we actually use those programs we have 
reviewed and our processes are such that how we award them and 
how they are actually administered is a good way forward. So we 
appreciated the provisions that were provided and they have 
clearly done good work in communities.
    Mr. Rush. I want to thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman yields back. At this time, the 
chair recognizes the chair, Mr. Upton.
    Mr. Olson, you are recognized for 5 minutes.
    Mr. Olson. I thank the chair. Welcome, Administrator 
Dominguez. I would like to talk about staffing at PHMSA, where 
are we now, where you would like to go, and how can DHA help? 
Following up on a lot of questions from Ranking Member Rush.
    In your testimony, you mentioned that direct hire authority 
would cut hiring time from 100 days to 30 days, a 70 percent 
reduction by the math. As I mentioned in my opening statement, 
Gene Green and I have a bipartisan bill to give PHMSA, you, DHA 
authority for a few years as you work through the new 
regulations.
    Obviously, hiring only matters if you get those inspectors 
in the field. Would you please talk about how PHMSA is 
improving training for inspectors?
    Ms. Dominguez. Thank you for the question. We have, as I 
noted, we have been aggressively hiring and the opportunity 
right now, we have been able to fill about 91 percent of our 
positions. That said, as we bring people on board, we have a 
very rigorous training program that we have rehabbed and 
literally put in place. It is a boot camp of sorts, not only 
just for our new inspectors, but the states are also doing a 
lot of hiring as well. And the state inspectors are also 
participating in this training. It is being conducted at our 
Training and Qualifications Center in Oklahoma City, Oklahoma. 
We just hired a new director over the course of the last 6 
months. He comes with a great deal of experience in this field. 
And as inspectors are deployed, they will have some of the 
latest and greatest tools at their dispense to use.
    Mr. Olson. And that's important. Thank you, ma'am. About 
Section 2 and Section 3 of the discussion draft. They require 
PHMSA to keep Congress and the public informed of the status of 
overdue rules and tackle them before beginning new rulemakings. 
Do you agree that this is a sensible and achievable requirement 
and any concerns about pressure points where you might feel 
some pressure to comply with these ideas, these new policies?
    Ms. Dominguez. As I noted in my opening statement, the 
prioritization of the 2011 mandates is something we take 
extremely seriously at PHMSA and completing those mandates is 
truly a priority. That said, there is always emerging risk that 
needs to be addressed. And so I appreciate the opportunity to 
work with the Congress to complete the mandates, but we also 
need to be in a position to address any emerging risk as it 
does appear.
    Mr. Olson. So it sounds like the 2011 mandates are pressure 
points. Any other pressure points you are concerned about going 
forward with keeping Congress and the public informed, more 
personnel, just whatever? I mean how can we make sure you do 
your job and the people back home know that this is safe?
    Ms. Dominguez. Well, I thank you for the investment that 
has been made by the Congress thus far. We are going to 
continue to make sure that we are using those resources wisely. 
Part of what we are doing is making sure that we are 
structuring the agency for that level of success as well. And 
some of the investment is to actually make sure that we are 
creating opportunities inside the agency to be more forward 
looking, proactive, data-driven, and improve our economic 
analysis and data analysis so that our rulemaking is as strong 
as it possibly can be and meet the requirements.
    Mr. Olson. And one final question. This is on Section 6 of 
the discussion draft that requires PHMSA to conduct timely 
post-inspection briefings with operators of pipelines. If there 
is a safety hazard, the operator needs to know so they can fix 
it immediately. Would PHMSA have an issue complying with this 
section going forward to any issues with PHMSA?
    Ms. Dominguez. I am terribly sorry, sir. Can you repeat the 
question, please?
    Mr. Olson. Yes, ma'am. Section 6 of the discussion draft 
requires PHMSA to conduct timely post-inspection briefings of 
the operators of pipelines. If there is a safety hazard that 
the operator needs to know so they can fix it immediately, how 
does that knowledge get to the operator? That is what I am 
saying. Can you take that mandate? Can you roll with that or do 
you need more help or something because these people need to 
have that information if they don't have it.
    Ms. Dominguez. So we take our inspection process very 
seriously. And one of the things that is presently part of our 
requirement for all inspectors is to make sure that they 
conduct an exit interview in a timely way. Right now, it is a 
30-day window for inspectors to complete their exit interview 
process. Moving forward, oftentimes it does take more time to 
develop any sort of enforcement requirements, whether that be a 
notice of proposed violation or other compliance measures that 
might be needed. So it is a very thoughtful process taking in 
all the data, assessing it, making sure. But I do appreciate 
the need to communicate with the operator and we continue to do 
that.
    So I will say that meeting that 30-day window of our 
initial findings is something that we are looking to do more 
consistently across the board, but it is a requirement right 
now within PHMSA. And then moving forward, as we develop those 
recommendations and any kind of violation orders or anything 
else, we do take those very seriously and they are a very 
thoughtful process.
    Mr. Olson. Thank you very much. I am out of time. I yield 
back.
    Mr. Whitfield. The gentleman yields back. At this time, I 
recognize the gentleman from--I was going to say New Jersey, 
but I will say California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. I thank the chairman. We are a long way from 
New Jersey. But we have had three high-profile failures in 
California over the last several years, so my first question, 
Administrator Dominguez, is do you feel that the states should 
have the option of requiring measures like shut-off valves, 
pressure monitors, testing of down-hole devices, if the federal 
regulators fail to do so?
    Ms. Dominguez. Thank you for the question. The way the 
process works right now and what Congress has mandated is that 
the Pipeline and Hazardous Materials Safety Administration, 
PHMSA, sets the minimum federal requirements across the board 
for all the states. The states are then allowed to go above and 
beyond those requirements and any given state can choose to do 
so regardless of what the requirement is.
    Mr. McNerney. So your requirements should be seen as 
floors, not ceilings?
    Ms. Dominguez. Correct.
    Mr. McNerney. Thank you. Will the draft legislation help 
PHMSA prevent these and other failures, so the legislation that 
we are talking about, or are there holes in the legislation 
that you think need to be filled in?
    Ms. Dominguez. Our requirements look to create what we 
believe to be the safety measure that needs to be put in place. 
And again, if states choose to do more and put in place more 
stringent requirements they are able to do so.
    Mr. McNerney. Well, I mean the current legislation we are 
talking about today----
    Ms. Dominguez. Yes.
    Mr. McNerney. Are there things that you think should be 
added or subtracted from that that you would like to discuss?
    Ms. Dominguez. We have put forward a series of principles 
that I think address any additional requirements. We are 
looking in particular at other ways that we can enhance our 
enforcement capabilities.
    Mr. McNerney. So you don't want to advise us here today?
    Ms. Dominguez. The one thing that will say that is in my 
testimony is to look for additional opportunities to level 
emergency order authority, an ability that other federal 
agencies have and actually our hazardous material program has 
which is also under PHMSA's authority.
    Mr. McNerney. Thank you. Let us talk about smart pigs 
versus direct assessment. My understanding is that if smart 
pigs could have been used in one of the high-profile failures 
in California, it would have prevented that, but they weren't 
able to be used because the pipelines were so old. Is that a 
common problem that smart pigs can't be used throughout the 
country because of aging pipelines?
    Ms. Dominguez. We do have an aging infrastructure system in 
this country and one of the things that we have looked to 
address across the board is really encouraging. We have done a 
call to action over the course of the last 5 years in 
encouraging states. About 37 states have actually addressed 
this by looking to incent and providing opportunities to 
replace aging pipes around the country. That said, there is 
still more work to be done and how to pay for that is a 
difficult proposition.
    We are working directly with states and the industry to 
continue to encourage that replacement of pipe and as you look 
at different opportunities on the inspection process, 
regardless of the tool that you use, you need to make sure that 
you use the right tool to address the pipe that you are 
actually trying to assess so that it not only protects the 
integrity of the pipe, but you actually get the analysis that 
you are looking for.
    Mr. McNerney. Is there any technology on the horizon that 
will improve that capability?
    Ms. Dominguez. We are constantly looking to invest in 
research and development. It is a big part of our program, R&D, 
to look to identify emerging technologies. The research that 
PHMSA has done to date is to identify 26 new technologies 
including sonar-related pigging capabilities. So it is a good 
investment.
    Mr. McNerney. Well, let us talk about substandard steel. Is 
this is an on-going problem or has that been resolved and new 
pipelines that go into use are up to standard steel?
    Ms. Dominguez. I believe that PHMSA has addressed 
substandard steel in a variety of advisory bulletins and other 
things for the operators that have substandard steel to replace 
it.
    Mr. McNerney. Do you believe that the industry consensus 
standards often reflect the best practices or do they reflect 
something a little less capable than the best practices?
    Ms. Dominguez. Consensus standards are a very good way to 
actually identify opportunities to work together both with 
states, the Federal Government, and the operators, to develop a 
set of requirements that the industry can then apply, both by 
executive order and by congressional action. Adoption of 
consensus standards is a way forward in lieu of rulemaking. 
That said, rulemaking in and of itself provides a very strong 
basis for actually implementing the safety measures.
    Mr. McNerney. Thank you, Mr. Chairman. I haven't run out of 
questions, but I have run out of time.
    Mr. Whitfield. Yes, you have. Thank you. At this time, I 
will recognize the gentleman from Ohio, Mr. Latta, for 5 
minutes.
    Mr. Latta. Thank you, Mr. Chairman, and Administrator, 
thanks very much for being here today.
    The recently proposed rulemaking addresses hazardous liquid 
pipeline shows some incremental progress to address safety. 
However, there are overdue regulations and I think you said 
that of the 42 you have addressed 26 and we have 16 to go. But 
when you are looking at some of these overdue regulations 
relating to leak detection and emergency shutoff valves, 
integrity management of natural gas pipelines, public education 
and awareness efforts, and accident and incident notification, 
do you know when we can expect some of these rules to be 
published?
    Ms. Dominguez. Well, thank you for the question. We have 
addressed two major rulemakings, well, four in the last 6 
months. But we are looking at--we published a Notice of 
Proposed Rulemaking for hazardous liquids last October. It was 
a Notice of Proposed Rulemaking that went out. We are working 
to finalize that rule right now. We collected comments. Our 
advisory committee met and we are working to finalize that 
rule. We hope to have it out this year.
    As I noted, we have received confirmation that the Office 
of Management and Budget has completed its review of our gas 
transmission line as of this morning and we will be looking to 
publish that as a Notice of Proposed Rulemaking over the course 
of the next couple of weeks. That will be available publicly 
and then we will work to complete that rule as well.
    Mr. Latta. OK, so that timeline you say is going to be in 
the next, what, 3 weeks on the last one you said?
    Ms. Dominguez. On gas transmission?
    Mr. Latta. Right.
    Ms. Dominguez. As soon as we are able to, we will publish 
it, so hopefully some time, no later than the next 2 weeks.
    Mr. Latta. So just in the meantime though will PHMSA also 
commit to sharing a time line or the schedule for that 
completion then? So you are going to have that out? Is that 
correct?
    Ms. Dominguez. Is that a question for the gas transmission 
rule
    Mr. Latta. I beg your pardon?
    Ms. Dominguez. I am sorry, can you repeat the question?
    Mr. Latta. That you will commit to sharing that time line, 
if it is 3 weeks for the one, but for the others, will you 
commit to a timeline in getting that out?
    Ms. Dominguez. Yes. And actually, we do publish on our Web 
site the status of all of the requirements that are available 
and we update it regularly.
    Mr. Latta. Thank you. And what, if anything, has PHMSA done 
since creating the 811 Dial Before You Dig program to 
incorporate new technologies or best practices to improve 
communication between the stakeholders for receipt of an 
excavation notification until the successful completion of the 
excavation as recommended by PHMSA's nine elements of effective 
damage prevention programs?
    Ms. Dominguez. Damage prevention is one of the leading 
causes of serious death and injury related to--it is one of the 
leading causes of pipeline incidents. And so we have invested 
an enormous amount of time and energy and resources to making 
sure that we are not only partnering with the states and the 
operators, but we are also working with common ground alliance 
to make sure that there is awareness across the board of these 
risks and making sure there are one-call centers available in 
states.
    There are some states that have not adopted one-call 
provisions. We are working with them right now. 811, it is 
proven the metrics are there, that if you actually call before 
you dig the risk is almost eliminated of excavation damage. So 
there is huge value in making sure that those excavation rules 
are abided by and adopted.
    Mr. Latta. Thank you. And finally, with my last minute 
here, how do pipeline operators use the in-line inspection or 
so-called smart pig technology to find problems in their 
pipelines?
     And then also, how accurate is the smart pig technology of 
finding cracks and other potential issues with the pipeline?
    Ms. Dominguez. So as part of our requirements, we look to 
make sure that the integrity of any particular pipeline is 
assessed and we put the onus on the operators to actually 
assess their own pipelines. And we set the requirements for 
what they need to look at, how they need to look at it, 
etcetera, and interpret that data. And then we go and inspect 
to make sure that they are actually complying with the 
requirements that we put forward.
    The in-line inspection tools that are available are 
constantly advancing. And as we look to advance that 
technology, we will have more data that is available to 
actually understand the exact operation of any given pipeline, 
assess it, and make sure that the operator is actually doing 
what they need to do to improve and enhance safety.
    Mr. Latta. Thank you. And Mr. Chairman, it looks like my 
time has expired. I yield back.
    Mr. Whitfield. The gentleman yields back. At this time, the 
chair recognizes the gentlelady from California, Ms. Capps, for 
5 minutes.
    Ms. Capps. Thank you, Mr. Chairman. And thank you again, 
Administrator Dominguez, and your team for visiting the Gaviota 
Coast in my district and for appearing here today.
    As you may know, I sent a letter to your office yesterday 
with many of the questions that continue to arise in the 
aftermath of the Plains oil spill and I ask unanimous consent 
to enter that letter into the records here which I have done.
    [The information appears at the conclusion of the hearing.]
    Ms. Capps. But today, I will try to narrow my questioning 
to a few of the still-pressing issues as the central coast of 
California recovers from the Plains spill with the goal that 
the answers will help make the legislation before us today as 
strong as possible
    As I said, the safety of our nation's pipeline 
infrastructure is critically important to protect public health 
and the environment and our local economies. I have several 
questions for you and so the briefer you can be in replying 
today, but longer answers could be submitted if you wish.
    You mentioned in your testimony, Administrator, that PHMSA 
is working to tailor inspection requirements to the risk 
profile of the pipeline operator. In the preliminary findings 
regarding the Plains spill last May, past in-line inspection 
surveys used to assess the condition of the pipeline showed an 
increasing number of anomalies between surveys. All the while, 
Plains opted to decrease the inspection intervals between 
surveys voluntarily. Does PHMSA currently have the authority to 
mandate increased frequency of inspections for individual 
pipelines?
    And other than the prescribed frequency for pipelines 
within the high-consequence areas, are there any established 
triggers that impact required frequency? For example, would a 
history of increasing anomalies discovered during sequential 
inspections, as was the case with this pipeline, would this 
automatically trigger a requirement for more frequent 
inspections? I am sorry, that is a mouthful.
    Ms. Dominguez. We do have the authority necessary to look 
at the requirements for frequency of assessing any pipeline. 
And that is what we do. What we need to look at in particular 
with the Plains accident is to understand and we are looking at 
this as part of our final investigative report. As you know, 
first and foremost, thank you again for the opportunity to be 
in Santa Barbara with you and release our preliminary factual 
report----
    Ms. Capps. Right.
    Ms. Dominguez [continuing]. Which identified a number of 
these issues and the facts surrounding the Plains case. That 
said, we are still conducting the investigation. As a result of 
that, if there is additional corrective actions that need to be 
taken, including anything having to do with an inspection 
capability, we will certainly look at that as part of our 
recommendation.
    Ms. Capps. OK, I hope this will be something that the 
proposed emergency order that you described would be used for, 
but I am going to turn now to the second question that I have.
    The draft legislation would mandate that all response plans 
include procedures and a list of resources for responding to 
worst-case scenarios. Here is my question. How frequently are 
pipeline operators required to update response plans? Are 
operators required to provide interim confirmation that a plan 
is up to date between reviews? And how does PHMSA ensure that 
plans are up to date? Again, that is a lot to ask.
    Ms. Dominguez. Thank you for the question. We review 
facility response plans for completeness and accuracy. If 
anything changes, the operator needs to send it back to us. We 
look at it again. We want to make sure that the operator has 
actually considered all the risks and resources that are 
available in accordance with our federal regulations. If they 
are not complete, we send them back to the operator and they 
must update them. And that is the procedure that we presently 
use with Facility Response Plans.
    Ms. Capps. Thank you. I have one final question which, 
again I am running short on time, but given the tremendous 
damage that can be done to coastal areas, wherever they are, 
Great Lakes, the East Coast, West Coast, are these coastal 
areas that act as the transition from the land to the ocean--
which is where the spill happened on our Gaviota coastline, the 
pipeline ran along the inland and found a culvert and ended up 
despoiling the ocean beneath it. Would it make sense to also 
increase the frequency of inspections to include these high-
consequence areas?
    Can you tell me how many pipelines or is there a way to get 
that on the record, how many pipelines actually exist in these 
coastal areas?
    Ms. Dominguez. I would have to get back to you for the 
record on the mileage with regard to pipelines along a coastal 
area. But I will tell you that our rulemaking is such that for 
hazardous liquids, we look to make sure that any area that we 
are providing the safest requirements possible for hazardous 
liquids and our gas transmission rule that we are looking at 
right now, we are looking to expand the definition of a high-
consequence area. So we will also expand that coverage as part 
of the gas transmission rule.
    Ms. Capps. I yield back.
    Mr. Whitfield. The gentlelady yields back. At this time I 
recognize the gentleman from West Virginia, Mr. McKinley, for 5 
minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Ms. Dominguez, since the law was passed in 2011, 5 years 
ago, everything I have read has indicated that the rate of 
accidents, ruptures, leaks, explosions, has not decreased. Do 
you have something to the contrary over the last 5 years of 
whether we are making progress?
    Ms. Dominguez. I believe that safety is a process of 
continuous----
    Mr. McKinley. Can you speak a little closer? I am very hard 
of hearing.
    Ms. Dominguez. Sure. I believe that safety is a process of 
continuous improvement. So as we have transitioned in this 
country to a very robust energy environment, it has been a very 
dynamic energy environment certainly the last decade, we are 
looking to make sure that all of our safety requirements are 
as----
    Mr. McKinley. I know that. I understand. It is why you got 
this job, apparently. You didn't have a lot of background in 
hazardous material, but you did have a good background in 
communicative and political skills. So I am just trying to ask 
a direct question.
    Everything I have read is that the rate of accidents are 
not decreasing and in many respects actually increasing since 
pipeline safety went into effect. So I know your mission. You 
want to achieve that, but from what we have read--that is why I 
was asking you. Do you have evidence that ever since the 
pipeline safety that it has been an effective tool that you 
have actually been able to reduce it? Because coming from where 
we are in eastern Ohio, western Pennsylvania and all of West 
Virginia, we have a rush of pipelines, and as I said last year 
to your predecessor, virtually every month there is an 
accident, a flame, some rupture, some leak, something happening 
that we weren't experiencing before. So I am trying to find a 
way to get some sense of confidence for the American public 
that our pipeline program is worth the investment and the time 
to do that.
    So again, let me try it again with you. Do you have 
evidence that our pipeline accident rates are decreasing or 
stay status quo?
    Ms. Dominguez. I would say that you should have every 
confidence that not only is PHMSA robustly addressing our 
mission on pipeline safety, that we have a level of dedication 
to make sure that that actually takes place and that the 
accidents that we are looking at we are learning from and 
making sure that we have--whether it is Santa Barbara----
    Mr. McKinley. Can you get back to me then? I am sorry if I 
am putting you on the spot. You are trying to play politics. I 
don't want to play. I just wanted some facts. Are we increasing 
or decreasing? I would appreciate that.
    The other is the lack of not having completed--I think last 
year we had 16 or 17 weren't completed, and then your statement 
you said 16 aren't completed. I am missing something. Why 
aren't they finished? If there was a law passed, is this part 
of the administration to say we are just not going to do it? We 
are not going to enforce the law?
    Ms. Dominguez. So in the last 6 months, we have moved 
forward on four and now five of the requirements from the 2011 
Act. So we are moving as aggressively as we possibly can. It 
has been a priority for the agency to address these 2011 
mandates and I can tell you that our focus is very laser-like 
on making sure that these requirements are met.
    That said, the rulemaking process is one that is intended 
to be thoughtful and methodical and it takes time. So I am not 
using that as----
    Mr. McKinley. Well, you had 5 years to do that. I would 
think if you were industry, I think you probably would have 
been fined by now. If you were an industry and violated the 
law. So I will be curious to see what the consequences are in 
finishing. I think your answer earlier was you were going to 
get back to us with some of the answers or what the deadline 
might be, your time line in getting those. I would sure like to 
see that as well.
    But the bottom line here is we have so much pipeline being 
constructed in West Virginia for the Marcellus and the Utica, 
that if we took a poll right now I am afraid a lot of the 
residents would turn on the pipeline because they see so many 
problems associated with it. So I am trying to get the 
confidence. If we are going to be energy independent and we are 
going to be able to tap into this for our energy sources in the 
future, they have got to have confidence with that farmer, if 
there is going to be a 42-inch pipeline across his field, that 
he doesn't have to worry about it. And right now, I don't think 
the American public has confidence in government now as giving 
us that assurance. So I really hope that you can finish your 
work that you were charged to do 5 years ago and get this thing 
at a point we can see a marked decrease in the amount of 
accidents across this country.
    Ms. Dominguez. Thank you. And I will tell you that not only 
are we working diligently to complete the mandates that 
Congress has provided, but we are also looking to enhance our 
safety performance by employing safety management systems which 
will raise the bar not only for PHMSA, but more importantly for 
the industries that we regulate to make sure that we are 
identifying and addressing all of the emerging risk, analyzing 
data, and truly informing that risk model moving forward. So 
safety management systems are really that next level of 
improvement on safety. And that is something that I am 
personally committed to, the agency is personally committed to, 
and I know we are working aggressively with all involved to get 
there.
    Mr. McKinley. My time has expired.
    Mr. Whitfield. The gentleman's time has expired. At this 
time I will recognize the gentleman from Pennsylvania, Mr. 
Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman, and I would like to 
thank you for holding this hearing today and to thank our 
witnesses for testifying.
    I am glad we are considering this important reauthorization 
legislation and I think the discussion draft under 
consideration represents a good first step in the process.
    Administrator Dominguez, I am concerned that PHMSA is still 
far from completing mandates instituted under the Pipeline 
Safety Act of 2011. Overdue regulations include those related 
to leak detection and emergency shutoff valves, as well as 
public education and awareness efforts.
    What are the biggest challenges facing you right now in 
getting these completed?
    Ms. Dominguez. We have been working through a very diligent 
and thoughtful rulemaking process and we have completed two, I 
think, of the most significant, although they are all 
significant requirements in the last 6 months alone. The first 
one was on the hazardous liquid rule which was published in 
October of last year.
    The one that I was addressing today which OMB has announced 
that they have completed their review and will be looking, we, 
PHMSA, will be looking to publish that over the course of the 
next 2 weeks is on gas transmission. It is a very comprehensive 
rule addressing a number of areas with regard to integrity 
management of gas transmission and really looking at 
strengthening both hazardous liquid and gas transmission rules.
    Mr. Doyle. So what assistance can our committee provide to 
ensure that this is done as quickly and responsibly as 
possible? How can we be of assistance to you in that regard?
    Ms. Dominguez. Well, I appreciate that Congress has 
invested in PHMSA. We have received, as I mentioned, 109 new 
positions. Most of those positions have gone to the field. 
Those are inspectors. We are training them and getting them up 
to speed as quickly as possible. And we are also using the 
remaining funds to strengthen our capabilities. As I mentioned, 
one of the things that we are engaged in is organizing the 
agency itself to be more data driven, more innovative, more 
predictive. And one of the things we are doing is looking at 
enhancing our data and analytics capabilities which will, in 
turn, help us in our rulemaking by collecting data and 
informing our regulations in a more productive way moving 
forward.
    Mr. Doyle. I want to also ask you about emergency order 
authority and authority other administrators enjoy. Can you 
describe in greater detail potential events that could justify 
the use of such authority and how having such an authority 
would be beneficial in those circumstances?
    Ms. Dominguez. Thank you for the question. You are correct. 
Even within PHMSA's own program, we are responsible for both 
hazardous materials and pipeline operation, pipeline safety. 
And emergency order authority, we have it on our hazardous 
materials program side. We are seeking it on the pipeline 
safety side.
    An example of where we might use it would be--there have 
been in the past defective fittings for pipelines that have 
been found. If we were able to have emergency order authority 
we would be able to ask that directly that operators address 
those defective fittings. Pre-1970s pipe and anything that was 
low-grade steel that needed to be addressed, that has in the 
past been found to be a problem. That is the type of work that 
we would do, something that would need to be addressed on a 
national basis. That would be the circumstance for an emergency 
authority.
    Mr. Doyle. Thank you. I am also interested in LNG exports 
and certainly share your support for strong safety standards in 
this area. Are there particular areas within this subject that 
you think require additional direction from our committee or 
the administration?
    Ms. Dominguez. We have been working to actually look to 
see. The LNG market has really transformed in this country over 
the course of the last 10 years alone. As you know, the United 
States has gone from importing LNG to now being a major 
exporter. I was just down in Louisiana a few weeks ago at the 
Cheniere facility which is now online and exporting LNG on a 
global basis.
    So as we move forward, we have got a very changing energy 
market and a very changing dynamic. And we have the authority 
to actually establish and enforce the safety standards for 
onshore LNG facilities, so while we look at other methods of 
transporting LNG, that is something that PHMSA is aggressively 
looking at right now, making sure that we are keeping pace with 
innovation and technology for other forms of transportation of 
LNG.
    Mr. Doyle. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman yields back. At this time, the 
chair recognizes the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Well, thank you very much, Mr. Chairman. And 
thank you, Administrator Dominguez, for joining us today.
    Section 11 requires that PHMSA issue new regulations for 
underground natural gas storage facilities. And the recent 
incident at an underground natural gas storage facility in 
California certainly highlights the importance of this 
requirement. So does PHMSA support this provision in Section 
11?
    Ms. Dominguez. I don't have the exact language in front of 
me. But I believe that----
    Mr. Johnson. But you know that it requires you guys to 
issue regulations. So do you support that?
    Ms. Dominguez. I will tell you that we have the authority 
right now to regulate the underground storage of natural gas. 
We do not presently have in place regulations that would 
address anything below the surface. So that would be something 
that we would work on.
    Mr. Johnson. Do you think it is important for states to 
retain a cooperative role in overseeing these facilities?
    Ms. Dominguez. We have been working cooperatively with the 
states for many years.
    Mr. Johnson. No, but do you think it is important that they 
retain that, that cooperative relationship?
    Ms. Dominguez. Absolutely. I think that what we need to do 
is work cooperatively across the board. While PHMSA sets the 
minimum federal standards, the states are always able to exceed 
those standards and should they want to put in place more 
additional requirements, they would be able to do so.
    Mr. Johnson. Section 16 of the discussion draft would 
reauthorize PHMSA's pipeline safety and grant programs and 
later today, we will hear from the states who would like to see 
an increase in state grants. The states do the bulk of the 
inspection work and the pipeline statute allows them to be 
reimbursed up to 80 percent by the Federal Government. Did the 
states receive the full 80 percent reimbursement in 2014?
    Ms. Dominguez. PHMSA, I will first and foremost tell you 
that we very much value our partnership with the states. And as 
you have stated, part of the money, a good portion of the 
monies that Congress provides us, we in turn grant to the 
states for their work----
    Mr. Johnson. We know. That is what I just said. So my 
question to you is did they receive the full 80 percent 
reimbursement in 2014?
    Ms. Dominguez. The way that the process is done is----
    Mr. Johnson. Did they receive it? That is a simple 
question. Did they receive it?
    Ms. Dominguez. The auditing is that so long as they provide 
the records, we reimburse them for the requirement----
    Mr. Johnson. That is history. That is part of your records. 
Did they receive the full 80 percent?
    Ms. Dominguez. I will have to go back to look and check the 
actual----
    Mr. Johnson. Well, I can tell you the answer, but would you 
get it and get it back to this committee, please?
    Ms. Dominguez. I would be happy to.
    Mr. Johnson. The answer is no, they did not. It was only 75 
percent and can you give us any idea why they did not?
    Ms. Dominguez. Again, as part of our process what we look 
for is confirmation of--we sent out a series of requirements 
for the states. They have to then provide their expenditures 
and then we reimburse them.
    Mr. Johnson. Would PHMSA support a relative increase in 
funds for state grants? You have acknowledged that the states 
do the bulk of the work, would you support an increase, a 
relative increase in those funds for state grants?
    Ms. Dominguez. I think the balance that we have right now, 
we are always looking to enhance safety, if that was a measure. 
The balance that we have now between the state and federal 
relationship is a good balance and if there were more funds 
available for PHMSA to help execute its state grant program, we 
would be happy to consider that.
    Mr. Johnson. I would think that balance would be improved 
if the states got the full reimbursement for their 80 percent 
though. Would you agree with that?
    Ms. Dominguez. Again, I want to be clear. Because part of 
the measure here is that there is transparency in the 
expenditures and so while it may be 80 percent or 75 percent 
reimbursement, I will check and get back to you for the record. 
That is something that is actually reviewed very seriously as 
we reimburse states for their expenditures.
    Mr. Johnson. OK, all right. Very quickly, PHMSA, as you 
know, I believe, should encourage performance based risk 
management regulations whenever possible because this data-
drive approach to safety offers the greatest flexibility 
allowing pipeline operators to adapt their programs and plans 
to provide an adequate margin of safety.
    So it has been reported that some rules under consideration 
by PHMSA are unable to pass the cost benefit analysis. If this 
is the case, why is PHMSA having difficulty incorporating cost 
into a risk-based regulation?
    Ms. Dominguez. PHMSA's pipeline safety program, in order to 
regulate, we have a requirement that Congress provided that our 
benefits have to exceed our costs. So our rulemakings contain 
that requirement across the board.
    Mr. Johnson. OK, Mr. Chairman. I yield back.
    Mr. Whitfield. The chair now recognizes Mr. Loebsack of 
Iowa for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. Thank you for being 
here, Administrator Dominguez, and taking the time to testify. 
This has been a pretty enlightening hearing for me. We have 99 
counties in Iowa and we have got pipelines everywhere just like 
everyone up here and safety, obviously, is the biggest concern.
    As I read your testimony and as I hear your responses and 
what folks are saying here as well, and again, I am just trying 
to learn what you folks do exactly, what your oversight role is 
and all the rest.
    Correct me if I am wrong, but it seems that a lot of what 
you do is after the fact, after pipelines have been put in the 
ground, after they have been built. Is that the case?
    Ms. Dominguez. Actually, we have a great deal of 
responsibility on the front end.
    Mr. Loebsack. Can you talk about that a little bit?
    Ms. Dominguez. Sure.
    Mr. Loebsack. Because that is really what I am more 
interested in than anything.
    Ms. Dominguez. So part of our requirements for pipeline 
safety include requirements around new construction for 
pipeline. So our requirements look at making sure that 
operators fully evaluate any newly constructed pipelines that 
go in to check on any issues that could affect a pipe's ability 
to operate safely once it is actually in operation. So our 
inspectors go out. They look at welding. They look at any kind 
of coating. And especially for new construction, I can tell you 
that we have applied about 20 to 25 percent of our resources in 
inspections to actually go out and look at new pipe that is 
being----
    Mr. Loebsack. If I can ask, I mean again, that is kind of 
after the fact, right? That is once the pipes are already 
there.
    What about, for example, when states are considering new 
pipelines? What kind of a role do you folks play in that whole 
process? A utilities board, for example, is looking at putting 
the possibility of putting a new pipeline in, might run across 
the state, might be part of the state. What role do you play at 
that point in that process, if any?
    Ms. Dominguez. PHMSA is not directly responsible for any of 
the siting issues that occur, so if it is an intrastate 
pipeline, the state would take that. If it is an interstate gas 
pipeline, FERC would take that responsibility. That said, we 
always work in close coordination and we have been working with 
the State of Iowa, as you have looked to educate, talk about 
the safety issues around pipelines. We have tried to work very 
cooperatively. I think we have done some good work with the 
State of Iowa as you look to expand your pipeline network.
    Mr. Loebsack. Who determines the integrity of these 
pipelines before a utilities board, for example, actually makes 
a decision as to whether the pipeline is going to be cited or 
not? Are those federal guidelines? Are those state guidelines? 
What are those guidelines, for example?
    Ms. Dominguez. The actual integrity of the pipeline and its 
operations is something that PHMSA takes on directly.
    Mr. Loebsack. And so the State of Iowa, for example, would 
know what those specifics are when that pipeline before it goes 
into the ground, what those specifics ought to be. Is that 
correct?
    Ms. Dominguez. The requirements for an operation of a 
pipeline and new construction criteria are standards that PHMSA 
sets.
    Mr. Loebsack. Right, and the integrity of the pipeline 
itself, if you will.
    Ms. Dominguez. Yes, we monitor the integrity of the 
pipeline itself. We put the onus of that operation through our 
integrity assessment requirements and integrity management 
practices that we have. We put that burden directly on the 
pipeline operator. The pipeline operator then has to collect 
data and we go about inspecting that and then if there is any 
anomalies or anything that we find, we take enforcement action 
against that.
    Mr. Loebsack. But all that information is known to a 
utilities board prior to their making a decision as to whether 
they are going to site a pipeline or not?
    Ms. Dominguez. We provide a lot of educational material to 
NARUC and a number of the public utilities commissions around 
the country.
    Mr. Loebsack. Will the proposed legislation here have any 
effect whatsoever on that--on those particulars and on that 
process?
    Ms. Dominguez. I would have to look at the legislation and 
respond back to you. I am not familiar with the particular 
section of the proposed legislation.
    Mr. Loebsack. I just want to make sure that not only the 
utilities board in any particular state, but the public who are 
involved in the process have all that information as well 
because there are public hearings, as you know, whenever there 
is a siting.
    Ms. Dominguez. We have a great deal of material. PHMSA has 
a great deal of material on our Web site that talks about all 
of the many aspects that we actually cover with regard to new 
construction of pipeline, assessment, and enforcement actions.
    Mr. Loebsack. Thank you. Thank you very much. Thank you, 
Mr. Chair. I yield back.
    Mr. Whitfield. The gentleman yields back. At this time, the 
chair recognizes the gentleman from Oklahoma, Mr. Mullin, for 5 
minutes.
    Mr. Mullin. Thank you, Mr. Chairman, and thank you for 
holding this meeting.
    Ma'am, we do appreciate you being here. I know you are 
fairly new and you are trying to get your head wrapped around 
it. And I commend you for what you are trying to do. 
Unfortunately, what we have seen as PHMSA has got a lot of 
concerns from Congress right now and the way that you are 
spending money and the grant programs that they are going to. 
And so that is one of the questions I have.
    To the Technical Assistance Grants program run by your 
agency, it seems to be a tremendous help providing additional 
training and education on training pipeline safety issues. 
Unfortunately, I am increasingly concerned that some of these 
taxpayer dollars are being awarded to groups that publicly 
oppose new pipeline infrastructure which was not the intent of 
Congress. With Congress looking to reauthorize the program, can 
you assure us that you will provide the oversight necessary to 
ensure these grants are being executed as Congress intended?
    Ms. Dominguez. The Technical Assistance Grants that we have 
provided to states, I believe are valuable programs for 
education for emergency responders as well as the communities 
around the country. PHMSA indeed has very strong internal 
controls, to answer your question, about how these grant 
applications are not only reviewed, but also how they are 
awarded and administered. And so that would continue moving 
forward.
    Mr. Mullin. Specifically, directing though the issue, how 
are these grants getting into the hands of people that are 
opposing it? If it is supposed to go for training, how is it 
going to people that oppose the pipelines? That has nothing to 
do with training. That has to do with people that are 
environmentalists, that they don't want the infrastructure 
built to begin with and they are spending money to oppose the 
pipelines to begin with. It has already been happening, so how 
can you assure us it is not going to continue to happen? The 
oversight, what steps has your agency taken since you have been 
at the helm since August?
    Ms. Dominguez. So as move forward on Technical Assistance 
Grants, we would look to make sure that indeed all of those 
requirements, whether it is review----
    Mr. Mullin. What are those requirements?
    Ms. Dominguez. There is a series of requirements that each 
applicant has to meet before----
    Mr. Mullin. Specifically, do you know what those 
requirements are?
    Ms. Dominguez. I don't have them with me, but I would be 
happy to provide them to you.
    Mr. Mullin. Are those the same ones that have been in 
place? Or have they been changed since you been there?
    Ms. Dominguez. They are the same that have been in place--
--
    Mr. Mullin. So no changes have been made to assure these 
programs can be made. What we are trying to do here, ma'am, is 
we want to make sure that the tax dollars are being used for 
their intended purpose. And if there has been no changes made, 
we already know that these technical grants that went to 
organizations that don't support pipelines period, they oppose 
them. These are for training to provide safety for those that 
are installing the pipelines and maintaining the pipelines, not 
for opposition groups. So if you haven't made any changes to 
it, then you can't assure us that it is not going to continue 
to be spent in the wrong way.
    Ms. Dominguez. I would be happy to look and do an 
assessment of the recipients of the Technical Assistance Grants 
to see where some of the actual recipients, what they have done 
with the money, but I can tell you that we do that as part of 
an annual process and review of our grants in general.
    Mr. Mullin. But even by saying that you did it annually, 
there has been no changes. So does that happen annually then? 
Have you not done it since you have been there?
    Ms. Dominguez. Not since I have been there, but we are 
coming up on a review of the programs right now, so I will 
certainly take a look at it.
    Mr. Mullin. Could you please do me a favor? When you do 
look at it, could you get back to either this committee or to 
my office and let us know what changes are going to be made? 
Because I can tell you that if it is going to continue the way 
that it is going, then there is no way I am going to be able to 
support reauthorization.
    Our number one goal is to have the intent of what Congress 
had for the tax dollars to be spent that way. And when we have 
opposing groups that are provided with grants that are supposed 
to be for safety and technical training and they are using it 
to oppose the projects to begin with, it seems like that is a 
waste of taxpayer dollars. Would you agree?
    Ms. Dominguez. I am not aware of a direct instance where a 
group has come into those dollars, federal dollars, but I will 
certainly look----
    Mr. Mullin. We will be happy to provide you with a list of 
those that have received those grants.
    Now to switch real quick to my last question, I want to 
talk about states. What is the relationship between the states 
and PHMSA right now as far as with pipeline safety and training 
and working with the states and not against the states?
    Ms. Dominguez. I think we have a very good working 
relationship with the states across the board. PHMSA is the 
federal regulator. The states often across the board have 
authority and through a certification process with PHMSA to 
conduct inspections within their respective states. We work 
cooperatively on that entire process. It is one where we are 
constantly exchanging information.
    One of the things that we are looking to do in this 
reauthorization is make sure that the inspection data that the 
states are collecting is something that we can collect at a 
federal level as well, to make sure that the data analysis is 
as robust as it can be in identifying risk and that is through 
our information sharing system.
    Mr. Mullin. Thank you and I went over my time. Thank you, 
Mr. Chairman, for yielding more time to me. Thank you.
    Mr. Whitfield. The gentleman yields back his time. The 
chair recognizes the gentleman from New York, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair. And Administrator 
Dominguez, welcome. Thank you for your leadership.
    As you may know, my district which is in the Capital 
District region in Upstate New York, has become a hub for 
energy transportation in recent years, seeing a tremendous boom 
in crude by rail shipments.
    Can you provide an update on the crude by rail spill 
response plan rulemaking?
    Ms. Dominguez. Thank you for the question, sir. We are 
moving that rulemaking very quickly. As you know, the Congress 
passed the FAST Act. It made some changes to some of the 
provisions. We have updated the rulemaking to reflect those 
changes that the Congress passed in the FAST Act and we have 
moved that forward through the Department, the rulemaking, and 
are working with our colleagues at OMB for a review of that 
rule right now.
    Mr. Tonko. Thank you. And I know you cannot comment on the 
specifics of that package, but can you explain just what was 
under consideration, what is under consideration?
    Ms. Dominguez. For the oil spill response?
    Mr. Tonko. Yes.
    Ms. Dominguez. We are looking at the provisions that were 
outlined by the Congress and some of the requirements under the 
FAST Act to make sure that all of those provisions are 
addressed.
    Mr. Tonko. Right. And you mentioned the FAST Act and the 
fact that you had to incorporate that into your actions. Are 
there new requirements or timelines that you need to take under 
consideration, other time lines?
    Ms. Dominguez. There are. There are new requirements for 
retrofit schedules and other things with regard to tank car top 
fittings and other aspects of the redesign that we have now 
taken into account based on the FAST Act.
    Mr. Tonko. Let me just state that I believe that it is 
critical for the public and the emergency responders' safety 
that they have all the information, the resources, and 
equipment in place to respond to an incident quickly and 
effectively. And spill plans are an important part of that 
effort.
    I am encouraged that you are moving forward. I hope that it 
is done expeditiously so that we can finish the rule and 
provide those elements to the individuals and groups that I 
just mentioned.
    But to bring this back to pipeline safety, the National 
Academy of Sciences had a recent study that raised issues with 
PHMSA's review of spill response plans. Does PHMSA review, do 
their review plans based on completeness? Do they base it on 
completeness or is the adequacy of those plans also taken under 
consideration?
    Ms. Dominguez. PHMSA actually looks very directly as 
facility response plans for completeness and accuracy to ensure 
that the operators considered all of the risk and the resources 
in accordance with our federal regulations.
    Mr. Tonko. Does PHMSA make recommendations about those 
plans that it feels are inadequate?
    Ms. Dominguez. Yes, we do. We comment directly on them. We 
send them back to the operators if they are not complete and 
require them to address any inconsistencies or any failings 
that we find in the response plan. They are obligated to then 
update them and resubmit them for review before we approve 
them.
    Mr. Tonko. And just how does that work in a functional way? 
Do they respond to those concerns about inadequacy?
    Ms. Dominguez. Yes they do. It is an iterative process.
    Mr. Tonko. I didn't hear what you said.
    Ms. Dominguez. It is an iterative process, so they are 
constantly being updated.
    Mr. Tonko. OK.
    Ms. Dominguez. Where they are constantly being updated.
    Mr. Tonko. Thank you very much. And is PHMSA's decision not 
to regularly conduct two-stage reviews, one for completeness, 
one for adequacy for spill plans an issue of lack of agency 
resources or is it a lack of legal authority?
    Ms. Dominguez. As I stated, we do look for both 
completeness and accuracy for facility response plans.
    Mr. Tonko. OK, and has PHMSA made any progress in 
instituting the NTSB's recommendations on this issue?
    Ms. Dominguez. I believe that our requirements now meet the 
NTSB requirements, but I will check and make sure and respond 
directly to you.
    Mr. Tonko. OK. And with an issue of resources, is there an 
adequate amount of resources to provide for an expeditious 
response to these efforts that come before the PHMSA group or 
are there areas of resource activity that could be 
strengthening your response?
    Ms. Dominguez. We have worked very diligently over the 
course of the last couple of years to make sure that all of the 
facility response plans that PHMSA reviews are up to date and 
complete. And we have put an enormous amount of resources in 
that process to make sure that that has occurred. Moving 
forward, if there are additional areas for investment, we will 
be sure to circle back with you. Thank you.
    Mr. Tonko. I would appreciate that. And with that, Mr. 
Chair, I yield back.
    Mr. Whitfield. The gentleman yields back. This time the 
chair recognizes the gentleman from North Carolina, Mr. Hudson, 
for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman. And thank you for 
being here with us today. I want to follow up on the line of 
questioning from my colleague, Mr. Mullin, talking about--and I 
was pleased to hear you talk about the importance of the 
cooperation with states, but my question is if states are so 
vital to PHMSA's pipeline safety program, why did PHMSA 
announce that it intended to rescind existing state-interstate 
agreements and disallow additional states to become interstate 
agents?
    Ms. Dominguez. So I appreciate your question. One of the 
things that we have continued to work on is exactly how we 
would continue to make sure that not only are we working as 
cooperatively as possible, I had a chance, actually, one of the 
first meetings that I did was go and meet with the National 
Association of State Pipeline Safety Representatives. These are 
the folks in every single state that represents the state 
inspection process and are our partners across the board. And 
that group is a very dedicated group of professionals looking 
to undertake pipeline safety at a very, very local level and we 
greatly appreciate our partnership with them.
    That said, we want to make sure that everything that we 
look at, that we use the money that Congress has given us to 
make sure that if there is a state that has been in trouble, 
that we are using the dollars to make sure that we are 
investing in that state to help rehabilitate them. The last 
thing we want to do is look to decertify a state for their 
state program.
    So any monies that are given to us for investment in a 
state would literally be used to help rehabilitate a state and 
make sure that we are not in a position of revoking their 
authority. That would be the last measure that we would look to 
take. Rather, we would look to invest in them and help them 
strengthen their program first and foremost.
    Mr. Hudson. So this announcement of the intention of 
rescinding existing state-interstate agreements is only focused 
on states where there is a problem? Is that what you are 
saying?
    Ms. Dominguez. I am not aware of an announcement that PHMSA 
has made with regard to decertifying states. We would, again, 
our first action would be to work directly with the states and 
look to make sure that we enhance their capability to perform 
their program.
    Mr. Hudson. OK, well, let me switch gears and talk about 
gathering lines for a second. Section 21 of the 2011 law 
directed PHMSA to review and report to Congress on existing 
federal and state regulations for all gathering lines. With 
this report, which was submitted more than a year late, PHMSA 
stated that it is considering the need to propose additional 
regulations to ensure the safety of natural gas and hazardous 
liquid gathering lines.
    Is PHMSA reviewing the need to propose changes to existing 
exemptions from federal regulation for gathering lines? If so, 
when will this review conclude?
    Ms. Dominguez. We are in the process of looking at that 
right now. Part of the work that we have done with our gas 
transmission rule includes gathering lines. And so as we look 
to publish the requirements in a Notice of Proposed Rulemaking 
for our gas transmission rule, it will include gathering lines.
    Mr. Hudson. OK. And when do you expect that to conclude?
    Ms. Dominguez. We received noticed this morning that OMB is 
concluding their review and we hope to publish the Notice of 
Proposed Rulemaking for gas transmission sometime in the next 2 
weeks.
    Mr. Hudson. Thank you. Switching gears one more time here 
before I run out of time, the issue of Maximum Allowable 
Operating Pressure. Section 23 of the 2011 law directed PHMSA 
to require each pipeline owner or operator to verify that the 
records accurately reflect the physical and operational 
characteristics of the pipeline and to confirm the established 
Maximum Allowable Operating Pressure of the pipelines. 
Inadequate records for older pipelines have been a long-
standing concern. The statutory deadline was July 3, 2013. When 
can we expect PHMSA to finalize the regulation addressing this 
issue?
    Ms. Dominguez. For Maximum Allowable Operating Pressure, a 
good portion of that is covered in the two regulations that I 
mentioned earlier, hazardous liquid rule and our gas 
transmission rule. So the hazardous liquid rule is covered, a 
portion of that. But the gas transmission rule also covers how 
we would best address that for gas.
    Mr. Hudson. So that addresses the issue with the older 
pipelines where we had insufficient records?
    Ms. Dominguez. Correct.
    Mr. Hudson. OK. Thank you for that. I am about out of time, 
Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman yields back. This time the 
chair recognizes the gentleman from Missouri, Mr. Long, for 5 
minutes.
    Mr. Long. Thank you, Mr. Chairman. Mr. Doyle kind of hit on 
this question earlier, but your agency still needs to fulfill 
16 of the 42 mandates from the 2011 Pipeline Safety Act. And in 
your testimony you mentioned that ten mandates will be 
addressed as part of the current rulemaking activities, but the 
remaining six are tied to reports and information collections. 
Why are several of these still in the early information 
collection phase?
    Ms. Dominguez. We are working through those. Right now, 
several of these reports are tied to some of the rulemakings 
that we are doing. So as we publish the rules, we will be 
publishing some of the reports. Moving forward, we are still 
doing some information collection. Technology is advancing and 
we still have opportunity to collect some more data to inform 
our reports moving forward and that is what we are focused on.
    Mr. Long. So tell me again the technology is advancing and 
that is slowing down the--I mean technology is advancing all 
the time.
    Ms. Dominguez. It is. So we are still working on 
information collection on several of those fronts. I am happy 
to give you the details about exactly the specifics that you 
are looking at, but I think that the two remaining information 
collection opportunities we have under way and I can give you a 
report. It is also on our Web site. But I will be happy to give 
you a direct update on it.
    Mr. Long. OK, because what I am kind of looking for is how 
we can speed up that process and get the information. So 
production of liquefied--excuse me, I didn't know I had a frog 
in my throat before I started this. Production of liquefied 
natural gas has increased significantly, as you know, in the 
last few years. How has your agency kept up with the LNG boom 
and have you been able to effectively update codes and design 
standards to keep up with this boom?
    Ms. Dominguez. So we have been looking very directly at 
LNG. It is something that, as you noted, has really changed the 
landscape of the United States. And one of the things that we 
are looking at is how we would update our regulations to make 
sure that we are keeping pace with the technology as it moves 
forward.
    We are updating our regs right now to provide for certainty 
in the design in the construction and the operation of small 
scale liquefaction facilities moving forward.
    Mr. Long. How effectively do you work with FERC as a 
coordinating agency for siting and reviewing LNG facilities?
    Ms. Dominguez. We have a good working relationship with 
FERC and they are directly responsible for a number of the 
siting requirements, in particular, for large scale LNG 
facilities.
    Mr. Long. In your testimony, you mention the important role 
states play in inspecting and enforcing both federal and state 
regulations. How closely do you work with these states in 
developing those regulations?
    Ms. Dominguez. We work very closely with the states. The 
Pipeline and Hazardous Materials Safety Administration is 
directly responsible for setting the federal standards and in 
turn, states then adopt those standards and are able to go 
above and beyond our requirements. And as the states directly 
carry out through a certification process with PHMSA, some of 
the inspection requirements, we work hand-in-glove with them, 
not only to make sure that their state inspectors come to our 
training facility, can take advantage of our--and we help 
provide funds to make sure that they are able to come and get 
trained on the requirements. But then we also work very 
directly with them in the execution of their state programs.
    Mr. Long. Of the what?
    Ms. Dominguez. Their state programs.
    Mr. Long. OK, so setting safety standards, things of that 
nature?
    Ms. Dominguez. Correct.
    Mr. Long. OK, thank you. Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back. At this time, the 
chair recognizes Mr. Griffith of Virginia for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman. I do 
appreciate you being here today. I apologize. We had a meeting 
related to the coal industry and black lung. We had a round 
table with Chairman Bobby Scott and another committee was 
hosting and I have a district that has produced a lot of coal 
over the years, and so that was an important issue as well.
    Now along those lines, we have a lot of pipelines being 
built now because of what I would see as the EPA's war on coal 
and the shutdown of like half of the industry in the last 
couple of years. The EPA is moving to regulate emissions of 
methane in the oil and gas industry by requiring oil and gas 
processing and transmission facilities to find and repair 
methane leaks. This was part of a speech given last week by the 
EPA director, administrator.
    PHMSA has already proposed a leak detection rule and has 
worked with the industry to reduce leaks. In fact, I think 
overall, methane emissions are down about 13 percent in the 
last couple of years through various things that you all are 
doing. I have concerns about the EPA imposing new regulations 
on pipeline operations that PHMSA already regulates.
    Has PHMSA provided any advice or guidance to the EPA in the 
development of their strategies and their proposals? Has EPA 
solicited any advice from you all? And does PHMSA foresee 
working with the EPA in the development of yet new regulations 
in this arena?
    Because time is short, if you could answer all of that 
quick, I would appreciate it.
    Ms. Dominguez. I think that one of the issues that we need 
to continuously look at in this country is the issue of aging 
infrastructure writ large. And one of the by-products of aging 
infrastructure is leaks, particularly in natural gas pipelines.
    So as we look to invest in replacement of old pipe, that 
helps reduce methane emissions, but also across the board helps 
with that larger goal. We always look to partner with our 
federal----
    Mr. Griffith. Yes, ma'am.
    Ms. Dominguez. Across the board, so would be happy to 
continue to do that.
    Mr. Griffith. Well, it appears that you all have been doing 
a fairly good job, so I hope they don't come in and start 
changing a lot of things. I would also have to note that 
according to Ms. McCarthy, the administrator of the EPA, 
methane is upwards to 25 times more potent than carbon dioxide, 
so I am a little concerned about that because they have been 
working so hard to eliminate coal, the fossil fuel that is used 
in this country of which we have an abundant supply. I wonder 
if this is just the opening salvo in a new war on natural gas?
    That being said though, we do have a lot of natural gas 
pipelines being built. The Mountain Valley Pipeline is coming 
through my district. I am very pleased to see that you all 
participated in the scoping hearings related to the Mountain 
Valley Pipeline. And so I guess I have to ask what role do you 
all play in advising or assisting either the pipeline companies 
or FERC prior to FERC approval of a new gas pipeline?
    Ms. Dominguez. Thank you for the question. We are truly in 
an advisory and a support role, both to the states and to FERC 
during the siting process. So if there are questions about 
safety, we often partner with FERC or the states to make sure 
that if citizens have questions during public meetings, et 
cetera, we talk through what our requirements are for design, 
construction, etcetera, of new pipeline.
    Mr. Griffith. I appreciate that. In mountainous crossings, 
and my district has got a lot of mountains in it, what are 
PHMSA's top concerns and where do you see the greatest 
difficulty ensuring the long-term structural safety of 
pipelines when they are crossing over and through mountains?
    Ms. Dominguez. I would tell you that our requirements are 
fairly robust in the new construction criteria. And so 
regardless of terrain, there are requirements that look at the 
geology of any particular area and that those requirements are 
met as new pipe is constructed.
    Mr. Griffith. And are there other areas that you believe 
that PHMSA and FERC could collaborate to a greater extent to 
ensure the safety concerns that a lot of my constituents are 
raising and can you get in early in that process as well?
    Ms. Dominguez. We, I believe, have been working. I had a 
chance to meet with the chairman of FERC, Norman Bay, and we 
have been working very collaboratively at a very local level to 
make sure that we are addressing citizens' concerns. And 
PHMSA's role in all of that is to again articulate what our 
safety mission is and how the actual operation of a pipeline 
would work once it is in the ground.
    Mr. Griffith. Thank you so much. Appreciate it. And Mr. 
Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back and that concludes 
the questions, except I have one other question before I let 
you go. Frequently, we see charts of reportable incidents on 
pipeline safety and it seems to be going up. What is the actual 
definition of an incident or a significant incident at PHMSA?
    Ms. Dominguez. I don't have the actual definition, if it is 
published, ready at hand, but I will tell you that any time 
there is an impact on people or the environment that impacts 
the work that we do as a result of the operation of a pipeline. 
So----
    Mr. Whitfield. So if a pipeline leaks any amount, is that 
an incident that must be reported?
    Ms. Dominguez. I will be happy to clarify for the record 
exactly what the requirement is for reporting on an actual 
incident.
    Mr. Whitfield. OK. I would appreciate that because I think 
that is important for us to know.
    Madam Administrator, thank you very much for taking the 
time to be with us today. We appreciate your testimony and look 
forward to working with you as we move forward and that 
concludes the questions for you.
    So at this time I would like to call up the second panel of 
witnesses. On the second panel of witnesses we have five 
panelists. And rather than introduce all of them right now, I 
am just going to introduce them one time and that is when I 
recognize them for their testimony.
    Our first witness this morning is Mr. Norman Saari who is 
the Commissioner for the Michigan Public Service Commission. 
And he is testifying on behalf of the National Association of 
Regulatory Commissioners. So Mr. Saari, thanks very much for 
joining us and you are recognized for 5 minutes.

 STATEMENTS OF NORMAN J. SAARI, COMMISSIONER, MICHIGAN PUBLIC 
 SERVICE COMMISSION (ON BEHALF OF THE NATIONAL ASSOCIATION OF 
REGULATORY UTILITY COMMISSIONERS); RON BRADLEY, VICE PRESIDENT 
 OF GAS OPERATIONS, PECO ENERGY (ON BEHALF OF THE AMERICAN GAS 
 ASSOCIATION); ANDREW BLACK, PRESIDENT AND CEO, ASSOCIATION OF 
  OIL PIPE LINES; DONALD SANTA, PRESIDENT AND CEO, INTERSTATE 
NATURAL GAS ASSOCIATION OF AMERICA; AND CARL WEIMER, EXECUTIVE 
                DIRECTOR, PIPELINE SAFETY TRUST

                  STATEMENT OF NORMAN J. SAARI

    Mr. Saari. Chairman, ranking member, committee members, 
thank you for the opportunity to appear today. I want to 
personally thank you for the invitation to share some thoughts 
and the commitment from a state regulator's perspective of the 
importance of safe and efficient----
    Mr. Whitfield. Be sure to just turn that microphone on.
    Mr. Saari. I beg your pardon, sir. I want to thank you for 
the opportunity to be here today. When Henry Ford rolled his 
first car off the assembly line in 1913, it may have traveled 
on a roadway that already had natural gas pipeline buried 
beneath it. That Ford Model T is likely now in a museum, but 
there may be some of the city's original gas pipeline still 
intact and still in use. That car was probably taken out of 
service because of its reliability and safety. We have a 
responsibility to make sure that the pipeline meets up-to-date 
reliability in current safety standards or it, too, must be 
taken out of service or replaced.
    The Michigan Public Service Commission joins with 
regulators nationwide to work on programs that ensure safe 
operations of the existing natural gas infrastructure on new 
projects with a top priority of protecting public health and 
safety in an environmentally-conscious manner. We join and 
collaborate with the Pipeline and Hazardous Materials Safety 
Administration, PHMSA, the U.S. Department of Transportation, 
FERC, and other federal agencies to coordinate these programs 
between federal interstate pipeline jurisdiction and state 
intrastate regulation.
    As I have highlighted in my submitted testimony, states 
rely upon a working partnership with PHMSA to develop and 
coordinate pipeline safety programs. This mutual effort 
requires sufficient federal funding needed to achieve the 
excellence we seek to administer one-call programs, complete 
timely inspections of new and existing natural gas lines, 
monitor and regulate gas storage facilities, and promote public 
education and awareness.
    The Michigan Commission works with its local companies to 
regulate programs for gas main construction and replacement and 
gas storage field operations and safety upgrades, while finding 
the proper balance of what its rate payers can afford to pay.
    Meeting the completion targets of replacement over 7,000 
miles in Michigan of natural gas mains will require 
expenditures over the next decade in the hundreds of millions 
of dollars. Other states have similar financial challenges. 
Staying on track and on target to meet these goals will require 
increased financial support from PHMSA to the states.
    Current law says that the states may be reimbursed up to 80 
percent by the Federal Government. During the 4 years prior to 
2014, states averaged only 73 percent reimbursement and needed 
to request suspensions to merely achieve that level of 
reimbursement. In 2014, the latest year money was reimbursed to 
the states, the base grant was about $42.2 million for gas and 
hazardous liquids. The state spent about $56.4 million on these 
pipeline safety programs. This meant states as a whole were 
reimbursed approximately 75 percent of what they spent.
    In order to keep state programs where they currently are, 
we would respectfully request an authorization for 
appropriation and appropriation for the fiscal year 2016 of no 
less than $49.5 million for state base grants increasing by no 
less than 4 percent each fiscal year thereafter. We need to be 
fully authorized and funded to carry out our mission.
    We all benefit from a sharing of information on best work 
practices, best regulatory approach, and best use of resources 
to meet these goals.
    Thank you for the opportunity to tell you that Michigan 
joins with NARUC and all other state regulators to work 
collaboratively with government and various stakeholder groups 
to achieve a world class pipeline safety program. Thank you, 
sir.
    [The prepared statement of Mr. Saari follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Mr. Saari, thank you very much.
    Our next witness is Mr. Ron Bradley who is vice president 
of Gas Operations at PECO Energy. And you are testifying on 
behalf of the American Gas Association. Welcome, and you are 
recognized for 5 minutes, Mr. Bradley.

                    STATEMENT OF RON BRADLEY

    Mr. Bradley. Good morning, Chairman Whitfield and members 
of the committee. My name is Ron Bradley, and I serve as vice 
president of Gas Operations at PECO, which safely provides 
reliable electric and natural gas service to approximately two 
million customers in southeastern Pennsylvania.
    PECO is part of the Exelon family of companies. Exelon is 
the nation's largest competitive energy provider serving more 
than eight million electric and natural gas customers in 
Illinois, Maryland, and Pennsylvania. Today, I am testifying on 
behalf of the American Gas Association which represents more 
than 200 local distribution companies, also known as LDCs.
    AGA members' companies operate 2.5 million miles of 
underground pipeline safely delivering clean, affordable 
natural gas to more than 71 million customers. LDCs provide the 
last critical link in the energy delivery chain connecting 
interstate pipelines directly to homes and businesses. Our 
focus every day is ensuring that we keep the gas flowing safely 
and reliably.
    As part of an agreement with the Federal Government, most 
states assume primary responsibility for the safety and 
regulation of LDCs, as well as intrastate transmission 
pipelines. Many states adopt standards that exceed federal 
requirements. Additionally, our companies are in close contact 
with state pipeline safety inspectors which permit a greater 
number of inspections to occur than is required by federal law.
    In addition to a culture of compliance, LDCs embrace the 
culture of proactive, collaborative engagement. Each company 
employs trained safety professionals, provides safety training, 
conducts rigorous system inspections, testing, maintenance and 
repair, and replacement programs, and educates the public on 
natural gas safety. AGA's commitment to enhancing safety 
adopted in 2011 provides a summary of these commitments beyond 
federal regulation.
    The commitment to enhancing safety has been modified 
several times to address new issues that have been identified 
and was recently modified to include actions to improve the 
safety of underground storage operations. The AGA has also 
developed numerous pipeline safety initiatives focused on 
raising the bar on safety including peer-to-peer reviews and 
best practice forums that share best practices and lessons 
learned throughout the industry. Each year, LDCs spent 
approximately $22 billion on safety. Approximately half of that 
on our voluntary actions. This number continues to escalate as 
work commences on newly approved accelerated pipeline 
replacement programs.
    Now turning to a review of the legislation. The Pipeline 
Inspection, Protection, Enforcement and Safety Act of 2006 and 
the Pipeline Safety, Regulatory Creation, and Job Creation Act 
of 2011 created new programs to improve the safety of the 
industry. AGA member companies have implemented aspects of 
these programs either voluntarily or through DOT regulation. 
However, many of these programs are in their infancy in terms 
of implementation, and we encourage Congress to allow these 
programs to develop and mature in order to realize their full 
impact.
    In the case of the unanimously passed 2011 Act, several 
regulations have yet to be promulgated or finalized. The 
progress that is being made is very important that the focus be 
on finishing the outstanding work. We commend the committee for 
emphasizing this in its initial draft. Layering new laws and 
regulation on to companies before existing regulations have 
been finalized and provided time to succeed creates uncertainty 
that undermines our shared safety goals.
    While we appreciate the committee's efforts to put forward 
a bipartisan bill, we are supportive of most of the text. We 
are very concerned that Section 15 of the draft bill would 
allow a person to bring a civil action in a District Court of 
the United States for injunction against PHMSA for failure to 
perform any nondiscretionary duty, even if PHMSA was engaged in 
enforcing its mandatory obligations under the law. This would 
have a deleterious effect of undermining and thus weakening the 
federal regulatory oversight this committee seeks to enhance 
and could cause market uncertainty.
    Moreover, to the extent that PHMSA would have to dedicate 
resources and time to litigation or complying with a court 
order, it could significantly diminish the agency's ability to 
work on other congressional priorities, thus negatively 
impacting pipeline safety.
    The creation of such a legal remedy could be used by 
individuals, however well intentioned, in a way that would be 
counter to the best interests of the nation, individual states, 
industry, and ultimately consumers while not necessarily 
enhancing safety. Thus, we respectfully urge the removal of 
Section 15 of the bill. The industry is already experiencing 
significant uncertainty regarding PHMSA's implementation of 
outstanding mandates in the 2011 bill.
    Regarding replacement of cast iron mains, a focus of the 
2011 pipeline safety reauthorization. The quantity of these 
mains continues to steadily decline. As of today, overall cast 
iron mains makes up less than two percent of total mileage. 
Natural gas utilities are working with legislators and 
regulators to accelerate the replacement of these pipelines. To 
date, 39 states and the District of Columbia have adopted 
specific rate mechanisms that facilitate accelerated 
replacement of pipelines that are primary candidates for system 
enhancement.
    In addition to what I have highlighted, my written 
testimony provides updates on the industry's efforts with 
regard to incident notification, data collection, and 
information sharing, and research and development. I am pleased 
to answer questions on these topics or any other topics that 
you have.
    [The prepared statement of Mr. Bradley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Thank you, Mr. Bradley. Our next witness is 
Mr. Andrew Black. I am delighted to have you back at the Energy 
and Commerce Committee, Andy. He is president and CEO of the 
Association of Oil Pipelines and also, my understanding, 
testifying on behalf of API. So you are recognized for 5 
minutes.

                   STATEMENT OF ANDREW BLACK

    Mr. Black. Thank you, chairman, ranking member. The 
Association of Oil Pipelines who deliver crude oil, refined 
products like gasoline, diesel fuel, and jet fuel and natural 
gas liquids such as propane. As the chairman indicated, I am 
also testifying on behalf of the American Petroleum Institute.
    Our U.S. pipelines safely deliver more than 16.2 billion 
barrels of crude oil and energy products a year. Pipelines play 
a critical role in delivering energy to American workers and 
families. Americans use the energy our pipelines deliver in 
their cars and trucks to commute to work or drive on the job, 
provide rural heating and crop drying and support good paying 
manufacturing jobs. The average barrel of crude oil or 
petroleum products reaches its destination safely, by pipeline, 
greater than 99.999 percent of the time.
    Addressing Mr. McKinley's question earlier, according to 
PHMSA date, significant liquids pipeline incidents that could 
affect high-consequence areas are down 8 percent over the last 
5 years. Significant incidents per mile that are over 50 
barrels in size are down 19 percent over the last 5 years. But 
even with these positive pipeline safety performance numbers, 
the member companies of AOPL and API are constantly working to 
improve pipeline safety further.
    Last year, operators completed development of a number of 
industry-wide recommended practices and technical reports to 
improve our ability to detect pipeline cracking, integrate 
safety data, manage safety efforts holistically, manage leak 
detection programs, and better plan for and respond to pipeline 
emergencies.
    This year, we turn to implementation of these safety 
recommendations industry wide. A prime example is our effort to 
encourage and assist implementation of API Recommended Practice 
1173 for pipeline safety management systems. Recommended by the 
NTSB and developed in conjunction with PHMSA and state pipeline 
regulators, this tool is helping pipeline operators 
comprehensively manage all the safety efforts underway across 
the company. The aviation, nuclear power, and chemical 
manufacturing industries have benefitted from safety management 
systems. Now more pipeline operators are benefitting, too.
    This year, pipeline operators will also complete expansion 
of industry wide recommended practice on river crossings, 
develop a new one for construction quality management, and 
update industry-wide recommendations for pipeline integrity 
program management. This last safety improvement action brings 
us to last summer's pipeline release near Refugio, California. 
We echoed Transportation Secretary Foxx calling the preliminary 
instant report from PHMSA ``an important step forward that will 
help us learn what went wrong so that everyone involved can 
take action and ensure that it does not happen again.'' Our 
members are committed to doing just that.
    PHMSA's preliminary factual findings could be described as 
the what of the incident. We expect PHMSA's final report later 
this year will contain root cause analysis and recommendations 
describing the still unknown how and why this incident 
occurred. At a minimum, we know there is opportunity for 
further industry-wide discussion and perhaps guidance for those 
operators that use the specific type of pipe involved in that 
incident, insulated pipe transporting heated crude. As part of 
our update of this industry-wide integrity management guidance, 
we will ensure learnings from industry-wide review and PHMSA 
incident report recommendations are reviewed and incorporated 
where appropriate. The effort should be finished later this 
year, far more expeditiously than could occur through an agency 
notice and comment rulemaking process.
    Turning to the next reauthorization, there is still much 
left for PHMSA to do from the 2011 law. PHMSA is working to 
finalize a broad liquids pipeline rulemaking as the 
administrator said, and may propose a rulemaking on valves 
soon.
    We commend Congress for its recent oversight in PHMSA, 
which has resulted in the administration issuing several 
rulemaking proposals and promising additional proposals and we 
encourage your ongoing oversight. Pipeline operators have not 
stood by and instead have advanced safety initiatives on 
inspection technology, cracking, data integration, safety 
management, leak detection, and emergency response. With the 
numerous recent industry initiatives addressing current 
pipeline safety topics, and additional PHMSA regulatory actions 
still to come, we encourage Congress to reauthorize the 
pipeline safety program soon without adding significant new 
provisions.
    Upon a brief review of the committee's discussion draft, 
AOPL and API would find it difficult to support the draft with 
the inclusion of Section 15. Private mandamus civil actions to 
compel agencies to perform certain duties have earned the 
moniker ``sue and settle'' because of their abuse at agencies 
such as EPA. A Chamber of Commerce report identified 60 cases 
of ``sue and settle'' lawsuits from 2009 to 2012 resulting in 
100 new EPA regulations costing from tens of millions to 
billions of dollars each. ``Sue and settle'' circumvents public 
participation, dilutes congressional oversight, bypasses 
standard administration review and analysis, and it limits 
agency transparency.
    In January, the House expressed its concern with ``sue and 
settle'' abuse by passing H.R. 712, reforming these processes 
in legislation that sadly appears unlikely to become public 
law. We urge that Section 15 be removed from the draft.
    Thank you for inviting me here today and I look forward to 
answering any questions.
    [The prepared statement of Mr. Black follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Thank you, Mr. Black. Our next witness is 
Mr. Donald Santa who is president and CEO of the Interstate 
Natural Gas Association of America.
    Welcome back, Mr. Santa, and you are recognized for 5 
minutes.

                   STATEMENT OF DONALD SANTA

    Mr. Santa. Good morning and thank you, Chairman Whitfield, 
Ranking Member Rush, and members of the subcommittee. My name 
is Donald Santa, and I am president and CEO of the Interstate 
Natural Gas Association of America, or INGAA. INGAA represents 
interstate natural gas transmission pipeline operators in the 
U.S. and Canada. The pipeline systems operated by INGAA's 24 
member companies are analogous to the interstate highway 
system, transporting natural gas across state and regional 
boundaries.
    INGAA testified before this subcommittee last July 
regarding pipeline safety and reauthorization of the Pipeline 
Safety Act. In that testimony, I outlined INGAA's safety 
commitments, undertaken in 2011, and the most recent amendments 
to the law that specifically affect natural gas transmission 
safety programs. I direct my testimony today to the specifics 
of the draft reauthorization bill now before the subcommittee.
    INGAA has consistently advocated three goals in connection 
with the pending reauthorization of the Pipeline Safety Act. 
These goals are first, establish authorized funding levels for 
the pipeline safety programs at PHMSA for the next 4 fiscal 
years; second, continue to focus PHMSA rulemaking resources on 
the completion of the remaining mandates from the 2011 
reauthorization, with one exception below; and third, that 
exception, create federal minimum safety standards and 
regulations for underground natural gas storage facilities.
    The discussion draft meets these three goals. There is also 
very similar to the bill, S.2276, approved last December by the 
Senate Committee on Commerce, Science and Transportation. That 
legislation is now pending before the full Senate and may be 
approved as early as this week. We appreciate that this 
subcommittee's discussion draft parallels the Senate bill in 
most respects because this will make it far easier to 
conference the two bills.
    A few quick points. First, the fiscal years covered by this 
authorization. The Senate legislation covers fiscal years 2016 
through 2019. This technically would be a 4-year authorization. 
As a practical matter, fiscal year 2016 has already been 
appropriated, and by the time this legislation is enacted, the 
current fiscal year will be close to an end. For this truly to 
be a 4-year authorization, INGAA suggests beginning with the 
fiscal year 2017 authorization or in the alternative, making 
the authorization effective through fiscal year 2020.
    Second, we agree with the manner in which the underground 
natural gas storage section was drafted and especially the 
clarification that PHMSA may delegate to a state the authority 
to regulate intrastate storage facilities. This provision has 
our support.
    Discussion draft, however, differs from the Senate bill in 
one important respect. Namely, the draft includes a provision 
that would allow an individual petition a federal district 
court to enjoin PHMSA in connection with that agency's alleged 
failure to act. As explained further in my written testimony, 
INGAA believes that this provision is ill-advised. It would 
allow the priorities of individual parties and the judgment of 
a federal district court judge to supplant the pipeline safety 
priorities and the allocation of agency resources established 
by PHMSA pursuant to the guidance provided by Congress. INGAA 
would seriously consider opposing the Pipeline Safety Bill if 
this provision were included.
    My written testimony includes comments on several other 
provisions in the draft bill which in the interest of time I 
will omit for my oral statement.
    Mr. Chairman, thank you for the opportunity to provide 
INGAA's views on the discussion draft. I would be happy to 
answer your questions at the appropriate time.
    [The prepared statement of Mr. Santa follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Thank you, Mr. Santa, and our next witness 
is Mr. Carl Weimer.
    Welcome back, Mr. Weimer, and he is testifying on behalf of 
the Pipeline Safety Trust where he is the executive director, 
and you are recognized for 5 minutes.

                    STATEMENT OF CARL WEIMER

    Mr. Weimer. Thank you. Good afternoon, Chairman Whitfield, 
Ranking Member Rush, and members of the committee. Thank you 
for inviting me to speak today on the important subject of 
pipeline safety.
    The Pipeline Safety Trust came into being after a pipeline 
disaster that occurred nearly 17 years ago. At that time, we 
were asked by the federal courts to create a watchdog 
organization over both the industry and the regulators. We have 
been trying to fulfill that vision ever since, but the increase 
in the number of significant incidents over the past decade 
driven primarily by releases from liquid pipelines from causes 
well within pipeline operators' control, makes us sometimes 
question whether our message is being heard.
    Today, I would like to dedicate my testimony to the memory 
of Peter Hayes who I met shortly after a Chevron pipeline 
dumped oil into Red Butte Creek in Salt Lake City. Mr. Hayes, a 
school teacher, was raising his family in a home that set on 
the banks of Red Butte Creek and he was extremely concerned 
about the possible long term health effects to the people in 
that area who were not evacuated immediately and experienced 
many different health symptoms associated with exposure to 
crude oil. He pushed hard for better emergency response and for 
someone to follow up with a study to determine whether people 
so exposed would experience any long term health problems. No 
one ever did such a study and in a tragic twist of fate, Mr. 
Hayes came down with a rare lung disease that may, in part, be 
caused by such exposure to environmental pollutants. He died 
last year.
    The need for studies on the health effects of exposure to 
oil spills has long been a void in our national pipeline safety 
system and was recently again called for by a National Academy 
of Sciences panel. Often in these hearings the focus is on how 
PHMSA has failed to implement various mandates and moved too 
slowly on regulatory initiatives. While we agree that those 
things are all important and fair game at such hearings, today 
we would like to focus our testimony on how the pipeline safety 
system that Congress has created also has much to do with 
PHMSA's inability to get things done.
    PHMSA can only implement rules that Congress authorizes 
them to enact and there are many things in the statutes that 
could be changed to remove unnecessary barriers to more 
effective and efficient pipeline safety. The pipeline safety 
statutes are the responsibility of Congress and today we will 
speak to issues where Congress needs to act if there is a real 
desire to improve pipeline safety
    Some of the things that Congress could change fairly easily 
would be to provide PHMSA with emergency order authority like 
other transportation agencies have. This would allow PHMSA to 
quickly correct dangerous industry-wide problems such as a lack 
of minimum rules for underground gas storage or the lack of 
valid verification of maximum allowable operating pressures. At 
the same time, by eliminating the unique and duplicative cost 
benefit requirement in the program statute, normal rulemakings 
could proceed at more than the current glacial speed.
    Congress also needs to harmonize the criminal penalty 
section of PHMSA's statutes so in the rare case when pipeline 
companies willfully or recklessly cause harm to people or the 
environment, they can be prosecuted as is necessary. And 
Congress should also add a strong mandamus clause as suggested 
in this committee's working draft bill to allow the federal 
courts to force PHMSA to fulfill their duties when it is the 
agency that is dragging its feet.
    As I mentioned earlier, the National Academy of Sciences 
recently completed a congressionally-mandated study that showed 
there were a number of serious issues with the way that PHMSA 
oversees spill response planning and the contents of those 
plans. We hope you will rapidly move to ensure that PHMSA is 
reviewing these plans not only for completeness, but also for 
efficacy as other agencies do and require companies to provide 
clear information so first responders know what they are up 
against.
    We also ask that you honor the memory of Peter Hayes and 
request an additional study by the National Academy of Sciences 
to help alleviate the lack of information about how to better 
protect people from the short and long term health effects of 
when pipelines fail.
    Finally, we have a few concerns with the language included 
in various reauthorization bills and hope you can address these 
concerns in your own bill. In particular, we think the wording 
in the statutory preference section of your draft bill may slow 
needed rules. We also think the language regarding underground 
gas storage needs to be clarified to ensure an open rulemaking 
process happens as soon as possible and that whatever is passed 
allows states to set stricter standards for facilities within 
their borders.
    And finally, we think the language in the Senate bill 
regarding small LNG facilities pushes PHMSA too much to rely on 
industry-developed standards and hard to enforce risk based 
systems.
    I see my time is about up, so I thank you for this 
opportunity to testify today and I would be glad to answer any 
questions now or in the future.
    [The prepared statement of Mr. Weimer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Mr. Weimer, thank you, and thank all of you 
for your testimony. And at this time I will recognize Mr. Olson 
of Texas for 5 minutes of questions.
    Mr. Olson. I thank the chair for his courtesies. And 
welcome to our witnesses. A special welcome to Mr. Black and 
Mr. Santa.
    As we all know, the first exports of American crude oil 
left Corpus Christi a few weeks ago and this week the first 
exports of American liquefied natural gas left Texas and 
Louisiana this week as well. Thank you, thank you, thank you. 
That is American liquid freedom going to Latin America and 
going to Europe. You guys are rock stars back home because of 
that.
    But let us talk about corrosion. In the investigation of 
the 2015 pipeline spill at Refugio Beach in California, they 
found corrosion in the pipeline. That fact should be no 
surprise. Obsolete gas pipelines and liquid pipes operate in 
tough environments. Soil corrodes. The product within the 
pipeline corrodes. And these aren't always brand-new pipes.
    As I saw in our Navy, corrosion starts from day one. In 
fact, they attack it every day with what is called a paint and 
chip detail. The young sailors have a scraper, a bucket of 
paint, and a brush and go all over the ship trying to curtail 
corrosion. It is a big challenge.
    So can you both, please, with you Mr. Black and Mr. Santa, 
discuss how you plan to control corrosion in your pipelines? 
Feel free. Big question, I know.
    Mr. Black. Corrosion may have been the biggest target of 
the modern integrity management regulations and it has been a 
success. Internal and external corrosion is down by greater 
than 50 percent. I think there is a 70 percent over 10 years 
and I am happy to get that fact for you.
    Mr. Olson. Thank you.
    Mr. Black. External corrosion has been reduced greatly by 
the practice of cathodic protection in pressing the current on 
to the pipeline and turning the pipeline into a cathode and 
anode, suffers the corrosion consequences. Internal corrosion 
has been worked on by cleaning pigs and then of course, the in-
line inspection.
    Mr. Olson. A smart pig is right across the hall, I think, 
actually. A smart pig is there right now.
    Mr. Black. Yes, exactly. They are supposed to gather that 
information. Like you, we are concerned by what we heard in the 
PHMSA initial incident report and we are eager, as an industry 
to get the final results on that so that we can develop our 
industry-wide recommendations to operators to address 
corrosion.
    We have already committed to updating API Recommended 
Practice 1160, Pipeline Integrity Program Management, to 
address the properties related to the special type of pipe, 
heated, insulated pipe, transporting heated crude.
    Mr. Olson. Mr. Santa, natural gas people, your pipelines, 
any concerns about corrosion, but what is your biggest--what is 
your plan to deal with corrosion to control it?
    Mr. Santa. First, as Mr. Black said, I think we have a 
success story here. As a result of the Integrity Management 
Programs that were prescribed by Congress, and then PHMSA 
acting pursuant to that, corrosion incidents on interstate 
pipelines are down dramatically, as a result of the Integrity 
Management Program.
    As you noted in setting up your question, that corrosion 
has a lot more to do with the environment in which the pipeline 
exists and not necessarily the age of the pipeline, the 
important point here is a pipe, regardless of its age, to 
ensure that it is fit for service.
    As a result of fulfilling the mandates in the regulations 
on integrity management, in fact, interstate pipelines have 
tested far greater mileage than that which is mandated just 
because of the nature of where these devices are inserted and 
removed from the pipelines.
    As part of INGAA's voluntary commitments that were made in 
2011, INGAA's members committed to expanding the scope of 
integrity management practices and we also expect to see the 
expansion of integrity management addressed as part of the 
upcoming PHMSA rulemaking on natural gas transmission 
pipelines.
    Mr. Olson. So still the safest way to transport liquids is 
with pipelines pure and simple.
    Mr. Santa. Yes.
    Mr. Olson. Another question for you, Mr. Black. PHMSA is 
looking to require remotely operated automatic shutoff valves 
in pipelines in the future. GAO has done a report on that and 
found that there are some safety concerns in some cases where 
they are used on liquid pipelines. What are your thoughts on 
automatic shutoff valves and what issues do they pose for 
liquid lines?
    Mr. Black. Well, I would like to distinguish automatic 
acting from automated valves, a practice in liquid pipelines 
construction today is to use remote controlled automated valves 
to safely shutdown a pipeline in the event that the pipeline 
needs to be shut down. Self-operating, self-actuating automatic 
shutoff valves cause safety concerns. GAO found that there can 
be a pressure build up with an automatic valve closing quickly 
and that can damage the pipeline.
    We reviewed and found nine incidents caused by conditions 
similar to an automatic shutoff valve closing abruptly, one of 
which had more than 400 barrels put along the right of way. So 
remote controlled, automated shutoff valves are important to be 
used in liquids pipelines and are.
    Mr. Olson. I yield back the balance of my time. Thank you.
    Mr. Whitfield. The gentleman's time has expired. At this 
time I recognize the gentleman from Illinois, Mr. Rush for 5 
minutes.
    Mr. Rush. Thank you, Mr. Chairman. Mr. Weimer, in your 
testimony you state that reauthorization should include 
directing PHMSA to conduct a study with the National Academy of 
Sciences to better understand the potential long term health 
benefits from pipeline failures and provide recommendations for 
threshold levels in order to better inform the evacuation 
decisions and the equipment necessary to measure such 
thresholds as part of the spill response plan.
    How did you come to this conclusion and why do you think 
this issue is so important that Congress should address it in 
the upcoming reauthorization bill?
    Mr. Weimer. Yes, thank you for the question. We came to 
that conclusion from a number of sources. The recent National 
Academy of Sciences study mentioned the need for greater 
studies on both human and environmental impacts of crude oil 
spills. But we have seen it over and over again after incidents 
that have happened in the last few years. The first one that I 
became aware of was the one I mentioned in my testimony in Salt 
Lake City. A number of people and their children got quite ill 
after a spill when they weren't evacuated. There was general 
confusion at that spill of who was in charge, whether it was 
the local health department, whether they had equipment to 
measure the vapors and what people were breathing and when 
evacuation should occur. We saw similar things in Michigan 
after the big spill into the Kalamazoo River. And then in 
Mayflower, Arkansas when crude oil ran through a neighborhood 
there, we saw the types of illnesses.
    Each state seems to have different thresholds for when they 
might evacuate people. There seems to be confusion who is in 
charge in those on-going incidents of those spills and those 
same health effects. Regardless of the type of crude oil has 
led us to the desire, along with the National Academy of 
Sciences that such a study be done to clarify what equipment 
needs to be on scene, how quickly and what those thresholds 
should be measured at.
    Mr. Rush. That is pretty alarming, and it seems as though 
we are--that is a real nightmare of a thought that you have a 
pipeline rupture and not have any idea about its effect on your 
family's health. That is pretty alarming.
    Are communities around this nation, are they generally well 
informed and educated about pipeline projects and the number of 
pipelines and the capacity of things and what really is being 
transmitted through those pipelines? Are they aware about the 
benefits of these pipelines and potential costs of these 
pipelines and if they are not, then what are some of the tools 
that we can use to help spread awareness among the American 
people regarding these pipelines?
    Mr. Weimer. Yes, thank you again for that question. I think 
communities are becoming more aware. Unfortunately, the 
communities that seem to pay attention are the ones where there 
has been an incident, so it is after the fact.
    PHMSA has done a very good job, actually, putting a lot of 
information available on their Web site in trying to push out 
information, but it still hasn't sunk in. A lot of it falls on 
the industry. There is a lot of emphasis from the industry to 
work with the local communities to make sure emergency response 
and emergency plans are in place. But we need the communities 
to pay attention to that.
    There is a lot of lack of information. I am an elected 
official in the country where I am from and I have been on the 
Emergency Planning Committee. When I ask these questions about 
do we have MSDS sheets like the National Academy of Sciences 
asked for or do we have monitoring equipment that will be put 
in place quickly if there is an incident, most of the emergency 
planners in my community and other places we have checked with 
just don't have that information. So there need to be more 
proactive efforts by all of us involved to make sure local 
governments are paying attention.
    Mr. Rush. Well, thank you, Mr. Chairman. I have run out of 
time.
    Mr. Whitfield. The gentleman's time has expired. I will 
recognize myself for 5 minutes of questions. I had asked 
Administrator Dominguez as she was leaving, what is a 
reportable incident? And I would ask those of you on the panel 
when are you required to report an incident to PHMSA? Do you 
know, Mr. Weimer?
    Mr. Weimer. It is funny that you ask that question because 
Mr. Black and I were joking about that because we are both on a 
committee with PHMSA working on indicators and there is a 
number of different reporting requirements depending--there are 
serious incidents. That is when somebody gets killed or 
hospitalized. Those number of incidents have actually been 
declining so that is a good trend. There are significant 
incidents. That is when you do $50,000 worth of damage, 
property damage, you kill or injure somebody or you spill a 
certain amount. I think it is like 50 barrels for liquid 
pipeline.
    Mr. Whitfield. Fifty barrels?
    Mr. Weimer. Fifty barrels, a couple thousand gallons. That 
would be considered a significant incident or if there is an 
explosion or fire.
    Mr. Whitfield. OK.
    Mr. Weimer. And then there are reportable incidents and I 
think that is as low as five barrels or maybe even five gallons 
for hazardous liquid pipeline.
    Mr. Whitfield. OK, so there is like three or four different 
levels, OK.
    Mr. Bradley. Those thresholds apply to natural gas as well. 
They rack up to the dollar amount.
    Mr. Whitfield. OK.
    Mr. Santa. Let me add to Mr. Bradley's point there that in 
some ways sometimes that leads to nonsensical results because 
if you think about the variability of natural gas or oil 
commodity prices, not natural gas prices.
    Mr. Whitfield. Yes.
    Mr. Santa. And if in reporting the damage you are reporting 
the dollar value of the gas that was emitted, well, that is 
going to be a far greater value when the price of gas is a 
dollar versus when it may be four dollars. So probably 
something there to ensure greater consistency to really measure 
what are the tangible dangers or effects rather than something 
that depends upon the commodity price that makes sense.
    Mr. Whitfield. And Mr. Black, how many miles of oil 
pipeline do we have in the U.S.?
    Mr. Black. One hundred ninety-nine thousand of liquids, 
oil, refined products, natural gas liquids, and CO<INF>2</INF>, 
yes, sir.
    Mr. Whitfield. And natural gas?
    Mr. Santa. Natural gas transmission pipelines, it is over 
300,000 miles, about 220,000 interstate.
    Mr. Whitfield. And how much of the crude oil that has been 
transported through pipelines is heated?
    Mr. Black. Very little.
    Mr. Whitfield. Very little?
    Mr. Black. Only if it is necessary.
    Mr. Whitfield. OK. One comment I want to make because as 
you notice, the Section 15 of our draft in parentheses they 
have got this private action of suit. And I noticed after the 
San Bruno incident, I think maybe I read this in your 
testimony, Mr. Weimer, where the City of San Francisco sued in 
federal court asking that the federal court require PHMSA to 
reject the State of California certification that the pipeline 
system met the federal standards.
    And I had a little bit of a problem with that myself 
because that is the mission of PHMSA to make sure that--so here 
you have the City of San Francisco suing the State of 
California basically, as well as the Federal Government, asking 
a federal judge to mandate that they not accept a certification 
from the state.
    So I have a real problem with Section 15 myself and the 
``sue and settle'' for example at EPA has really been a major 
headache because what we see, third parties file the suit. They 
enter into a settlement with EPA and its lawyers or Justice and 
the states affected by those suits are not able to even 
participate in the settlements which I find unacceptable.
    And so I agree with the three of you that this is a real 
issue and having said that, I mean I am going to try to not 
include this, but having said that I have got 50 seconds left 
and I know Mr. Weimer disagrees, so I will turn it over to you 
to make your argument.
    Mr. Weimer. All right, thank you for that. Yes, we saw that 
after the California, the San Bruno incident you mentioned. I 
think the City of San Francisco and others----
    Mr. Whitfield. Is your microphone on?
    Mr. Weimer. Yes. Were pretty aghast at the way that the 
California Public Utility Commission had overseen the law over 
the past few years. There is still, I think, even criminal 
investigations going because the connections between the 
California Public Utility Commission and the industry out 
there. And that led San Francisco to file that.
    We are agnostic on the arguments that San Francisco made, 
but when we saw the federal court step in and try to throw out 
the idea that the citizens or local governments could go to 
court to try to force PHMSA to do what their jobs requires them 
to do that is when we thought it was important.
    Mr. Whitfield. Thank you. My time has expired. At this 
time, I recognize the gentleman from California, Mr. McNerney, 
for 5 minutes.
    Mr. McNerney. Well, I thank the chairman. I thank the 
panelists for coming in here today.
    I am going to start with you, Mr. Weimer. Do you believe 
that there is adequate representation across all interested 
parties on the advisory committees at PHMSA?
    Mr. McNerney. Yes. The advisory committees are made up of 
the three groups, regulators, the public, and the industry. And 
I think the way it is designed it is pretty well, the slots 
don't always get filled in a timely manner. Like at our last 
Technical Committee meeting when we were talking about the 
liquids rule, there were still two public slots that were open, 
so it would be nice before major rules are considered if all 
the slots are filled.
    Mr. McNerney. How about the actual staff of PHMSA? Is there 
adequate staffing or is there an urgent need to fill more 
positions?
    Mr. Weimer. I think Congress has given them a huge budget 
increase that allowed them to add over a hundred new 
inspectors. That was good. And they are also working on some 
program enhancements. So I think time will tell over the next 
couple of years whether they can fill those slots and whether 
that is an adequate number.
    Mr. McNerney. Well, in your testimony you mentioned 
something about cost benefit analysis. Could you expand on that 
discussion a little bit, please?
    Mr. Weimer. Sure. I think it was back in the '90s. It might 
have been the 1996 Act. Congress put in a cost benefit 
requirement in the pipeline statute. As far as we can 
determine, this is the only administration that has kind of 
this double cost benefit, both in the statute and also then 
when the rules go to OMB. Talking with a number of people that 
do those things, they really think that can kind of slow down 
the process and as everybody on this committee has mentioned 
you know, PHMSA has been kind of slow to meet some of these. So 
since all of the rules that go to OMB have to go through a cost 
benefit, this double cost benefit analysis early on and then 
when it goes to OMB may be slowing down rules unnecessarily.
    Mr. McNerney. Would industry object if the cost benefit 
requirements were eased?
    Mr. Weimer. You would probably have to ask them.
    Mr. McNerney. Mr. Santa?
    Mr. Santa. Yes, Mr. McNerney. I would suggest that before 
the committee amend the law or propose to amend the law to 
address that that it examine whether there, in fact, have been 
any instances in which the statutory cost benefit analysis has 
added to the time and the burden. I would agree that the amount 
of time that it takes to get a rule through OMB is very 
troublesome and that that ought to be addressed and that that 
often seems to reflect the priorities of a particular 
administration that is in office where some rules go through 
very, very quickly and others get terribly bogged down.
    Mr. McNerney. Mr. Black, you said that you felt Congress 
should pass the law pretty much as it is now in the discussion 
draft form. At least that is what I understood.
    Mr. Black. Without adding significant new mandates to 
PHMSA, yes, sir.
    Mr. McNerney. So mandates. Because I was going to say 
Administrator Dominguez, her one recommendation to me was that 
they should have additional authority to react to critical 
situations. Would you agree with that or not?
    Mr. Black. Well, if PHMSA is aware of some safety 
information like the defective fittings she mentioned, we 
encourage them to get that word out as soon as possible. They 
have got that process right now through the advisory bulletin 
process and I can tell you I have seen first-hand how important 
those advisory bulletins are to the industry. I am not aware of 
any incidents that would have been avoided in the past if 
emergency order authority was in place. We are ready to look at 
a proposal, but we would think it should have a high standard. 
It should address emergency conditions that pose imminent 
threats or widespread harm, should be narrow in scope, should 
be subject to expedited review. Happy to look.
    Mr. McNerney. There is no doubt in my mind that you all and 
industry want to prevent incidents. There is no doubt in my 
mind about it and that you will take steps to do that, but I 
have a feeling that if it is left to industry, it will tend to 
be optimistic and you need a little oversight to make sure the 
optimism doesn't cause problems.
    Mr. Black. If PHMSA is aware of information like a defect, 
we want to hear about it as soon as possible. Their quickest 
way to get that information out is the advisory bulletin 
process.
    Mr. McNerney. And not only that, creating rules that--high 
standards that cause industry to have safety standards that 
prevent incidents.
    What is the typical industry response to an advisory 
bulletin by PHMSA, Mr. Black?
    Mr. Black. Read very carefully. We have industry groups, 
employees working on pipeline safety issues focusing on 
improvement and they are dissecting those very closely. We have 
got instances of advisory bulletins in the last couple of years 
that have led to operators getting that aha moment and taking 
that back to their companies.
    Mr. McNerney. Thank you. Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Thanks, Mr. Chairman. And thanks very much to 
the panel for being here today.
    Mr. Santa, if I could start with a few questions for you. 
Can you comment on how your members use the 811 Dial Before You 
Dig program and do you believe that it would be helpful to 
incorporate new technologies or best practices to improve the 
communication between the stakeholders from receipt of 
excavation notification until successful completion of the 
excavation?
    Mr. Santa. Mr. Latta, INGAA's members strongly support 811. 
One of the significant causes of pipeline incidents is 
excavation damage and so we very strongly support 811 and 
strong programs to ensure that all excavators are subject to 
such programs.
    If there are specific proposals on how via using 
technology, the effectiveness of those programs can be 
improved, I think we would be very interested in hearing that.
    Mr. Latta. Let me follow up with that. How can the Federal 
Government help advance the adoption of developing those 
technologies? Are there technologies out there that we should 
be doing, the Federal Government should be helping to advance?
    Mr. Santa. Well, PHMSA has dollars in its budget that it 
can use at its own discretion for research and development. 
Also, there is the ability to do cost-shared research and 
development with the industry since we all share the goal of 
improved pipeline safety and developing technologies that can 
prove that.
    Mr. Latta. Thank you. Mr. Black, how do pipeline operators 
use in-line inspection, the so-called smart pig technology to 
find problems in their pipelines?
    Mr. Black. Well, you put this cylinder-shape robot inside 
the pipeline and push it through with the force of the liquid 
and it collects information about the properties of the 
pipeline, terabytes of information. That information is then 
taken out of the smart pig and it is analyzed by a third party 
vendor working with the pipeline operator to determine what 
features need to be investigated. They follow industry 
practices and PHMSA regulations about which features need to be 
uncovered and inspected in person by a pipeline to determine 
whether there needs to be a repair or whether it is just an 
issue that hasn't become a problem yet. The results of this 
which cost more than $2.2 billion in 2014, has been a dramatic 
decrease in corrosion-related incidents and in all types of 
incidents since modern integrity management practices were put 
into place.
    Mr. Latta. So you are saying that the technology we have 
today has really increased the ability to find those cracks 
that are out there in the pipeline?
    Mr. Black. Yes. It is finding more. That is more for 
pipeline operators and these third-party vendors to look at. 
Now the challenge is taking all of this information, finding 
out what are those true positives that need to be addressed and 
finding those issues and repairing them before they become a 
problem.
    Mr. Latta. Let me ask this also. In the draft bill that we 
have here today, there is a provision for the use of the smart 
pigs not less than once every 12 months for certain deep water 
pipelines. Is that a reasonable interval for that?
    Mr. Black. It would address pipeline water crossings of 
greater than 150. We would not support that being applied to a 
greater set of pipelines and I will explain why. Right now, 
pipeline operators are required to assess the condition of 
their pipelines and to prioritize areas based on risk. 
Determining a 1 year inspection schedule is not really 
supported by the conditions of that pipeline. It is not 
reported by what has been found. It is arbitrary. If that is to 
be expanded, we would find that it is diverting safety dollars 
from areas of greater risk.
    One year in pipeline integrity management for inspections 
is probably too soon. Any time that pipeline operator does that 
smart pig and gets that result, some features that they find 
require analysis within a year. Some are immediate. But to run 
a smart pig every year, you may not learn that much new from 
year to year.
    Mr. Latta. OK. Well, thank you very much, Mr. Chairman. I 
yield back the balance of my time.
    Mr. Whitfield. The gentleman yields back. At this time, the 
chair recognizes the gentleman from New Jersey, Mr. Pallone, 
for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask a 
couple of questions of Mr. Weimer. In Ms. Dominguez' testimony, 
she requested that Congress give PHMSA emergency order 
authority. And PHMSA already has corrective action authority 
that allows it to direct a single operator to take action to 
protect life, property, and the environment. But as I 
understand it, emergency order authority would allow the 
secretary to take such action on an industry-wide basis. Seems 
like a common-sense tool for the agency to have. I am kind of 
shocked that they don't have it already.
    Could you just please talk more about this request and 
specifically what would the benefits of emergency order 
authority be for communities to which pipelines are routed? For 
instance, between 2007 and '09, pipe was being produced for 
market that did meet industry standards. In your opinion, would 
this have been a situation in which emergency order authority 
would have been helpful, just as an example?
    Mr. Weimer. Yes. Thank you for the question. I think you 
hit the point right on the nose, that there is a number of 
issues that come up that are found because of an incident on a 
specific pipeline. And PHMSA has the authority to order that 
specific pipeline to change their ways, but currently they 
don't have the authority to change, order the whole industry, 
nationwide, to change things. Whether it is pipeline that 
wasn't made to specs, that I think you were mentioning that 
came to light a few years ago, the fittings that Ms. Dominguez 
mentioned or other serious things that become obvious that it 
is a nationwide problem, at this point they have to go through 
a rulemaking that can take years as we have seen. They do have 
the ability to put out advisory bulletins like Mr. Black 
mentioned, but the industry is a broad spectrum of different 
people and while we think most of the industry pays attention 
to the advisory bulletins, there may be some within the 
industry that don't.
    Mr. Pallone. All right, thank you. And then a second topic 
deals with the TAG grants. The Pipeline Safety Information 
Technical Assistant Grants are very important to me and a 
number of members. I think you know that the grants came into 
being as a compromise in 2002 after this committee reached an 
impasse on right-to-know language for pipeline inspection data. 
And I, for one, think we still need a strong right-to-know 
provision in law. If we have that, I think it would be 
appropriate to discuss changes to the TAG grant program. The 
fact is that we don't have the right to know in the statute, so 
we need these grants in order for communities to have access to 
the technical expertise and info they need to truly understand 
pipeline risks in their area.
    A few minutes ago, my colleague, Mr. Mullin, raised some 
concerns about the TAG grants and I would like to give you a 
chance to respond to those concerns. First, does the Pipeline 
Safety Act allow TAG grants to be used for lobbying?
    Mr. Weimer. Well, I think specific to the statute, there 
are two things that are precluded from use of the money. One is 
lobbying. You are not allowed to use any of the TAG grant money 
for lobbying and you are not allowed to use it for any type of 
lawsuit against a pipeline company.
    Mr. Pallone. So the answer is no, it can't be used for 
lobbying. It can't be used for litigation.
    Mr. Weimer. Correct.
    Mr. Pallone. Is there any evidence of a widespread abuse of 
TAG grants or do the majority of such grants go for useful, 
lawful purposes?
    Mr. Weimer. Well, there has been over 160 TAG grants that 
have been let out over the course of the program. I am 
certainly not knowledgeable of all of those, but I don't know 
of any specific grants that have gone toward lobbying or 
lawsuits. Most of them have been used by local governments, 
local communities, looking at improving safety through GIS 
works, emergency response, looking at specific issues and not 
for lobbying or lawsuits.
    Mr. Pallone. My final question is by allowing communities 
to hire experts to obtain independent pipeline safety 
assessments, doesn't that help everyone, industry included, by 
ensuring that there is real, credible data out there on a 
pipeline? I mean that is what these TAG grants are all about, 
right?
    Mr. Weimer. Yes, absolutely. And we certainly have seen 
evidence of that. We were involved with a TAG grant from a 
group that got a TAG grant in California this past year and 
they had a concern about a hazardous liquid pipeline that ran 
through their community. Once we looked at the incidents from 
that pipeline and went and met with that community, we kind of 
assured them that that pipeline wasn't as big a deal as perhaps 
working with the local governments in that community to ensure 
that they are dealing with emergency response correctly. Their 
concerns for that particular pipeline were kind of overblown 
once we shared the correct information with them.
    Mr. Pallone. All right. Thanks a lot. Thank you, Mr. 
Chairman.
    Mr. Whitfield. The gentleman yields back. This time I 
recognize the gentlelady from California, Ms. Capps, for 5 
minutes.
    Ms. Capps. Thank you, Mr. Chairman. And thank you to all of 
our witnesses for your testimonies today. Throughout the course 
of this hearing, we have heard over and over about the need to 
maximize the safety of natural gas and hazardous liquid 
infrastructure. The truth is that far too many of us have had 
direct experience with a devastating pipeline or storage 
facility incident that has led to significant harm to public 
health, the environment, or the local economy. And in every 
case, just as it did in my district in response to the Plains 
spill this last May, these incidents highlight inadequacy in an 
existing management requirement. As we learn from these 
tragedies, it is critical that we apply this knowledge to make 
all of our communities safer.
    Mr. Weimer, you mentioned--my questions are addressed to 
you, Mr. Weimer. You mentioned in your testimony that the 
number of pipeline incidents has been steadily increasing over 
the past 10 years. Can you elaborate on a few? And I have 
several questions, so you can make it just one or two, what are 
the causes leading to this increased number that we are 
experiencing? Does the abundance of aging and outdated 
infrastructure have anything to do with the uptick in 
incidents?
    Mr. Weimer. Yes, thank you for the question. And there was 
a graph in my written testimony.
    Ms. Capps. Right.
    Mr. Weimer. That showed that the significant incidents on 
liquid pipelines has been increasing. It is again one of those 
measurement things about what are the things that make up 
incidents, but there certainly has been a rash of big incidents 
like the one that happened in your own district, the Marshall, 
Michigan spill; the one in Mayflower, Arkansas that kind of 
brought this to a head.
    The major causes, when you look at the PHMSA data are 
things within pipeline operators' control, things like use and 
operation of the pipeline, corrosion and bad equipment.
    Ms. Capps. In other words, they are preventable. As a 
follow-up, can you elaborate on how emergency order 
authorizations could help ensure that systemic issues in 
pipeline infrastructure could be responded to in a more timely 
manner? As you know, there was quite a significant time lag 
between the start of this spill and a response, even though by 
chance, emergency responders were very nearby.
    Mr. Weimer. Yes, clearly, if PHMSA had emergency order 
authority it could help in situations where they learn 
something. Like the pipeline that failed in your own district, 
there is evidence coming out now and it is not for sure yet, 
that because that was an insulated pipeline that may have 
affected that pipeline differently.
    Ms. Capps. Yes.
    Mr. Weimer. If it turns out that is the truth, an emergency 
order would allow PHMSA to correct that problem nationally.
    Ms. Capps. Exactly. Well, you have led to a topic that we 
should be addressing here in our committee.
    Now I want to turn to the need for improved response 
planning to quickly and adequately react to spills when they do 
occur. Without up to date and appropriate response plans in 
place is it possible to respond to incidents such as pipeline 
failures and spills? In your view, what must all response plans 
include and when should these plans be updated, for example, in 
response to changing conditions or new knowledge to ensure that 
they are both adequate and current? That is a big question. I 
am sorry, but you can answer quickly and then respond in 
writing for the record, if you would.
    Mr. Weimer. Sure. There is a number of things. The National 
Academy of Sciences pointed out that PHMSA mainly looks at 
these response plans for completeness, not for effectiveness.
    Ms. Capps. Right.
    Mr. Weimer. They need to change that. They need to ensure 
more testing.
    Ms. Capps. Thank you. And finally, you touched on a lack of 
stringent criminal penalties with regard to violations in 
pipeline safety. Are the current criminal and civil penalties 
regarding pipeline safety adequate to dissuade operators, 
especially the bad actors from committing violations? Can you 
elaborate on the need to expand upon existing penalties? I hope 
you can.
    Mr. Weimer. Sure. The language currently in the pipeline 
safety statute is different than what it is on the hazmat side 
for PHMSA where they include recklessness as one of the things 
that can be prosecuted. We think it should be harmonized with 
what they have on the hazmat side and with what a lot of other 
safety agencies also have.
    Ms. Capps. And again, Mr. Chairman, I hope we can follow up 
with discussion of some of these topics.
    I appreciate your answers to my questions. It is clear 
there are many avenues for improving upon existing pipeline 
regulations. It is also clear to me that we must ensure that 
PHMSA has the necessary tools to make these changes, including 
those that have yet to be implemented from the last 
reauthorization to minimize risks associated with natural gas 
and hazardous liquid infrastructure.
    Once again, I would like to reiterate that I look forward 
to continuing to work with the chairman and ranking member to 
continue to improve upon the draft that we have so that we can 
ensure that we are crafting legislation that will minimize the 
frequency and impact of all future spills and protect our 
communities. Thank you and I yield back 3 seconds.
    Mr. Whitfield. Thank you for yielding back 3 seconds. I 
want to thank all of you for joining us today. We look forward 
to continuing dialogue as we move forward on this legislation.
    And Mr. Saari, we didn't have a lot of questions for you, 
but we did pay attention to your testimony and do appreciate 
your bringing to the forefront the state grant issue and the 
adequate compensation to the states. And particularly in 
Michigan, I guess you all have more underground storage of 
natural gas than any state in the country is my understanding.
    But anyway, that will conclude today's hearing. We will 
keep the record open for 10 days. And I would like to enter 
into the record a statement from American Public Gas 
Association, as well as letters from Representative Capps to 
PHMSA, dated February 29, 2016, regarding the Plains pipeline 
accident in California. Without objection, it is entered into 
the record.
    And thank you all again, and that concludes today's 
hearing.
    [Whereupon, at 12:48 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
